      Office of Inspector General
      Audit Report




      Region III Water Quality
Standards, Monitoring, and Reporting




         E1HWF7-03-0160-9100118

             March 31, 1999
Inspector General Division   Mid-Atlantic Audit Division
Conducting the Audit          Philadelphia, PA


Region Covered:              Region 3


Program Offices Involved:    Office of Water

                             Region III Water Protection
                             Division

                             Region III Environmental
                             Services Division
                   UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                              WASHINGTON, D.C. 20460



                                                                      OFFICE OF
                                                                 THE INSPECTOR GENERAL




                                  March 31, 1999

MEMORANDUM

SUBJECT: Region III Water Quality Standards, Monitoring, and Reporting
         Audit Report Number E1HWF7-03-0160-9100118


FROM:       Michael Simmons
            Deputy Assistant Inspector General for Internal Audits

TO:         J. Charles Fox
            Assistant Administrator for Water (4101)

            W. Michael McCabe
            Regional Administrator (3RA00)

Attached is our final audit report on Region III Water Quality Standards,
Monitoring, and Reporting. The overall objectives of this audit were to determine:
(1) whether Region III implemented effective procedures to evaluate State water
quality standards, monitoring, and reporting; and, (2) whether the State of
Maryland implemented procedures to develop standards, monitor its waters,
and report on its water quality. This report contains recommendations to the
Assistant Administrator for Water and to the Regional Administrator of Region III.

This audit report contains findings that describe problems the Office of Inspector
General (OIG) has identified and corrective actions the OIG recommends. This
report represents the opinion of the OIG. Final determination on matters in this
report will be made by EPA managers in accordance with established EPA audit
resolution procedures. Accordingly, the findings contained in this audit report do
not necessarily represent the final EPA position, and are not binding upon EPA in
any enforcement proceeding brought by EPA or the Department of Justice.

ACTION REQUIRED

In accordance with EPA Order 2750, the action officials are required to provide us a
written response to the audit report within 90 days of the date of this report. The
Assistant Administrator for Water need only address the recommendation in
Chapter 2. The Region III Administrator is responsible for the remaining
recommendations. These responses should address all recommendations and
include milestone dates for corrective actions. This will assist us in deciding
whether to close this report.

We have no objections to the further release of this report to the public. Should
your staff have any questions about this report, please have them contact Michael
Wall or Carl Jannetti at (215) 814-5800, or Ernie Ragland at (202) 260-8984.

Attachment
                        EXECUTIVE SUMMARY


Objectives         The objectives of our audit were to determine:

                   1.   Whether Region III implemented effective procedures to
                        evaluate State water quality standards, monitoring, and
                        reporting.

                   2.   Whether the State of Maryland implemented procedures
                        to:

                        ‚   Develop standards that will protect the State’s
                            water quality,

                        ‚   Monitor the quality of State waters, and

                        ‚   Ensure reports on water quality are accurate,
                            complete, and useful to program management.


Results-In-Brief   Our audit disclosed several areas needing improvement with
                   respect to the water quality programs in the States within
                   Region III.

                   Bacteria In Water Not Properly Assessed Or Reported

                   Elevated bacteria levels can be hazardous to people using the
                   water for recreational activities, such as swimming or water
                   skiing. Bacteria can cause illnesses including sore throats,
                   ear infections, diarrhea, gastroenteritis, meningitis, and
                   encephalitis. The Clean Water Act requires EPA to develop
                   and publish criteria for assessing water quality based on the
                   latest scientific knowledge. States are then to adopt these
                   criteria, or criteria that are at least as protective as EPA’s.

                   In 1986, EPA published its Ambient Water Quality Criteria
                   for Bacteria, which recommended Enterococcus and E. coli as
                   bacteriological indicators of harmful pathogens. However, as
                   of 1998, Delaware is the only State within Region III to
                   adopt either of these two criteria. The remaining States use
                   fecal

                                      i
                                              Report No. E1HWF7-03-0160-910018
coliform, a criterion developed in the 1960's to assess their
water quality. Thus, by not assuring that States adhere to
the Clean Water Act by using criteria based on the latest
scientific knowledge, the Agency implicitly allowed States to
use a less protective criterion to assess the bacteriological
quality of their water bodies. As a result, water bodies with
bacterial contamination may remain undetected and
unreported, and the public may be unknowingly exposed to
harmful bacteria.

In addition to not adopting the EPA bacteriological criteria,
the State of Maryland did not implement its own criteria, or
follow EPA guidance when assessing and reporting water
bodies impaired by bacteria.

Deficient Standards Were Not Corrected

Water quality standards in Maryland, Delaware,
Pennsylvania, Virginia, West Virginia and the District of
Columbia, were inadequate in 1998, even though EPA
identified some deficiencies as far back as 1990.
Consequently, State standards do not protect the waters in
Region III as intended by the Clean Water Act, and the
Agency risks being sued for not promulgating adequate
water quality standards. This occurred because Region III
did not fully use its authority, or fulfill its responsibility, to
ensure that deficient standards were corrected. Specifically,
Region III did not issue written notices to the States, or
elevate these issues to the EPA Administrator, who then
would have had the authority to make promulgation
decisions.

Missed Opportunities To Correct Standards

The Clean Water Act requires each State to: (a) hold public
hearings at least every three years to review its water
quality standards; and, (b) submit the results of these
reviews to the Administrator of EPA. The purpose of these
“Triennial Reviews” is to determine the need for additional
standards or for the revision to existing standards. Thus, if
hearings are not held and standards not reviewed, the public
and EPA have less assurance as to the adequacy of State
water quality standards. At the time of our audit, West
Virginia was the only State within Region III to have


                   ii
                             Report No. E1HWF7-03-0160-910018
                    completed its Triennial Review timely. The other States did
                    not complete their reviews because the Agency has not
                    enforced its authority under the Clean Water Act.

                    Planning Documents Were Not Prepared Or Updated

                    States in Region III did not prepare or update water quality
                    planning documents as required by the Clean Water Act and
                    by Federal regulations. These documents include:
                    Continuing Planning Process Documents, Water Quality
                    Management Plans, Monitoring Strategies, Quality
                    Assurance Management Plans, and Quality Assurance
                    Project Plans. Regional personnel argued that certain
                    documents were not actually required to be submitted, or
                    that other documents were suitable substitutes. The absence
                    of these documents lessens confidence that States are
                    effectively managing their programs to clean up water
                    bodies. Moreover, the absence of Continuing Planning
                    Process Documents has resulted in lawsuits against EPA in
                    Delaware, Maryland, Pennsylvania, and Virginia.

                    From fiscal year 1995 through 1998, States in Region III
                    received Federal funds exceeding $35.5 million to fulfill a
                    wide range of water quality activities required under the
                    Clean Water Act, including: (a) developing and reviewing
                    standards; (b) monitoring and assessing the water; and, (c)
                    preparing the reports and documents required under the Act.



Recommendations We recommend that the Assistant Administrator for Water
                work to ensure that, if States do not amend their water
                quality standards to include the Agency’s 1986 Ambient
                Water Quality Criteria for Bacteria, appropriate action is
                taken to resolve the deficiency.

                    We recommend the Region III Administrator:

                    ‚   Take appropriate action if Maryland does not
                        implement its own bacterial regulations. Such action
                        could include withholding Section 106 funding,
                        elevating the issue to the Administrator, or
                        disapproving the State’s Impaired List.



                                     iii
                                              Report No. E1HWF7-03-0160-910018
‚   Send written notices to each State in the Region clearly
    identifying the inadequate standards.

‚   Coordinate with EPA Headquarters to promulgate
    standards if States do not correct the inadequacies
    identified in the written notices.

‚   Initiate action to identify what toxic pollutant water
    quality criteria are necessary, if the 1999 Maryland
    Triennial Review fails to do so.

‚   Request the Administrator of EPA to consider initiating
    Clean Water Act 303(c)(4)(B) actions against Delaware,
    the District of Columbia, Pennsylvania, and Virginia.

‚   Withhold a portion of Section 106 funding from any
    State whose Triennial Review is overdue.

‚   Require States receiving grants under Section 106 of the
    Clean Water Act to develop and/or update Monitoring
    Strategies and Water Quality Management Plans.
    When necessary, withhold funds from States that
    neglect to do so.




                 iv
                          Report No. E1HWF7-03-0160-910018
                                      TABLE OF CONTENTS


EXECUTIVE SUMMARY

GLOSSARY

CHAPTER 1
   INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           1
      Objectives . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1
      Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        1
      Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               4
      Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              6

CHAPTER 2
   BACTERIA IN WATER NOT ASSESSED OR REPORTED . . . . . . . . . . . . . . . 7
      Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
      EPA Office of Water Response to the Draft Report . . . . . . . . . . . . . . . . . 13
      OIG Evaluation of Office of Water Response . . . . . . . . . . . . . . . . . . . . . . 14
      Region III Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . 15
      Maryland Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . 15
      OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

CHAPTER 3
   DEFICIENT STANDARDS WERE NOT CORRECTED . . . . . . . . . . . . . . . . .                                              19
      Deficient Maryland Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     20
      Deficiencies in Other States Within Region III . . . . . . . . . . . . . . . . . . . .                             22
      Region III Position . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            23
      Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       24
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              24
      Region III Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . .                          24
      Maryland Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . .                            25
      OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           25

CHAPTER 4
   MISSED OPPORTUNITIES TO CORRECT STANDARDS . . . . . . . . . . . . . .                                                 27
      Consequences of Late Reviews . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     29
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              30
      Region III Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        31
      Maryland Response to the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . .                            31
      OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           31




                                                            v
                                                                       Report No. E1HWF7-03-0160-910018
CHAPTER 5
   PLANNING DOCUMENTS NOT PREPARED OR UPDATED . . . . . . . . . . .                                                  33
      Continuing Planning Process Documents . . . . . . . . . . . . . . . . . . . . . . . .                          34
      Water Quality Management Plans . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                     34
      Monitoring Strategy . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          34
      Quality Assurance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        35
      Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   36
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          37
      Region III Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    37
      Maryland Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    38
      OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       39

APPENDIX A
      Office of Water Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . 41
      Region III Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
      Maryland Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77

APPENDIX B
   DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91




                                                          vi
                                                                      Report No. E1HWF7-03-0160-910018
                             GLOSSARY

Anti-degradation   A policy to ensure water quality is conserved, maintained,
Policy             and protected.

CFR                Code of Federal Regulations.

CPP                Continuing Planning Process document.

Criteria           Numeric values or narrative statements that describe the
                   quality needed to support a water body’s designated use.
                   Criteria are to be established in State regulations for
                   chemicals, metals, bacteria, and other contaminants.

Designated Use     The use for a water body designated by State regulations
                   that include: protection of aquatic life and recreation ( i.e.,
                   swimming, boating, or white water rafting) and may include
                   such uses as drinking water protection.

Discharger         A person, company, or wastewater treatment plant that
                   releases pollution into a water body, usually in accordance
                   with a permit issued by EPA or a State Agency.

DNR                Maryland Department of Natural Resources.

E. coli            Eschericia coli; one of the species of bacteria in the fecal
                   coliform group. Its presence is considered indicative of fresh
                   fecal contamination, and it is used as an indicator organism
                   for the presence of pathogens.

Encephalitis       Inflammation of the brain.

Enterococci        A group of cocci bacteria that normally inhabit the intestines
                   of people and animals. They are used as indicators of fecal
                   contamination.

Fecal coliform     A class of bacteria found in the intestinal tract of warm-
                   blooded animals and people. Their presence is an indicator
                   of possible contamination by pathogens.

Gastroenteritis    Inflammation of the lining of the stomach and the intestines.



                                     vii
                                                Report No. E1HWF7-03-0160-910018
Impaired               A water body that does not fully support its designated use,
                       because its criteria have been exceeded.

MDE                    Maryland Department of the Environment.

Meningitis             Inflammation of the three membranes that envelop the brain
                       and the spinal cord, especially as a result of infection by
                       bacteria or viruses.

OIG                    Office of the Inspector General.

Pathogen               A bacterium or virus that causes disease.

Promulgate             To make known the terms of a new regulation or to put a
                       new regulation into effect.

Sanitary Survey        An investigation to determine the source of contamination in
                       a water body.

Standards              Water quality standards consist of three elements: a
                       designated use, water quality criteria, and an anti-
                       degradation policy.

States in Region III   Maryland, Delaware, District of Columbia, Pennsylvania,
                       Virginia, and West Virginia.

TMDL                   Total Maximum Daily Load - how much pollution may be
                       added to a water body without impacting its designated use.

Toxic Pollutants       The 126 toxic pollutants listed in Section 307(A) of the Clean
                       Water Act. States are required to adopt specific numeric
                       criteria for these pollutants that are at least as protective as
                       EPA criteria recommendations, or provide a scientifically
                       defensible rationale for less protective criteria. EPA refers to
                       these as “priority” toxic pollutants.




                                         viii
                                                   Report No. E1HWF7-03-0160-910018
                        CHAPTER 1

                      INTRODUCTION


Objectives   The objectives of our audit were to determine:

             1.   Whether Region III implemented effective procedures to
                  evaluate State water quality standards, monitoring, and
                  reporting.

             2.   Whether the State of Maryland implemented procedures
                  to:

                  ‚   Develop standards that will protect the State’s
                      water quality,

                  ‚   Monitor the quality of State waters, and

                  ‚   Ensure reports on water quality are accurate,
                      complete, and useful to program management.


Background   The Clean Water Act is the primary legislation addressing
             water quality programs. The principal goals of the Act are
             to:

                  ‚   Restore and maintain the chemical, physical, and
                      biological integrity of the nation’s waters,

                  ‚   Achieve water quality that promotes protection and
                      propagation of fish, shellfish and wildlife, and
                      provides for recreation in and on the water.

                               Water quality standards provide the
                Standard       foundation for accomplishing these goals.
                    s          These standards are laws or regulations
                               that States adopt to enhance the quality of
                               their water bodies and to protect the public
             health and welfare. Water quality standards consist of three
             elements: a designated use, water quality criteria, and an
             anti-degradation policy.


                                1
                                        Report No. E1HWF7-03-0160-910018
States classify their water bodies according to how the water
can be used. These “designated uses” include the protection
of aquatic life and recreation, i.e., swimming, boating, and
white water rafting and may also include the protection of
drinking water.

Once the designated use of a water body is determined, the
Act requires the State to develop water quality criteria for
that use. Water quality criteria identify the amount of
contamination that may be present in the water without
impacting the designated use.

EPA published Federal criteria that set numerical criteria
for 103 toxic pollutants and approximately 38 other
pollutants. These restrictions are based on the effect the
pollutants have on the water’s use. States must either adopt
the Federal criteria or develop their own scientifically
defensible criteria that are at least as protective.

The Clean Water Act also requires State water quality
standards to include an anti-degradation policy. Title 40,
Code of Federal Regulations (CFR) Part 131.12, requires
States to identify the implementation methods for this policy.
The purpose of an anti-degradation policy is to conserve,
maintain, and protect existing water quality, including water
bodies of exceptionally high quality such as those found in
National and State Parks.

                         Section 303(c)(1) of the Clean Water
     Triennial           Act requires each State, at least
        Review           once every three years, to hold
                         public hearings. The purpose of
                         these hearings is to review, and, as
appropriate, modify and adopt water quality standards. The
results of these reviews are then to be made available to the
Administrator of EPA.

Section 303(c)(4) of the Act stipulates that the Administrator
of EPA shall promptly prepare and publish proposed
regulations setting forth a revised or new water quality
standard:




                   2
                           Report No. E1HWF7-03-0160-910018
    ‚    If a revised or new water quality standard
         submitted by a State . . . is determined to be
         inconsistent with the Clean Water Act, or

    ‚    In any case where the Administrator determines
         that a revised or new standard is necessary to meet
         the requirements of the Act.

If a State fails to conduct these “Triennial Reviews,” the
Agency is empowered to “to take appropriate action” under
Section 303(c)(4)(B) of the Act.

                   Title 40 CFR Part 130.4 requires each
   Monitori        State to develop a monitoring program to
       ng          assess whether their water bodies meet
                   water quality standards. Such programs
                   generate information necessary to guide
                   management decisions and track
environmental progress. The monitoring programs must
meet EPA’s quality assurance requirements. The programs
must also identify the water bodies to be tested, the
frequency and types of testing, and the entity to conduct the
testing.

                   Section 305(b) of the Clean Water Act
   Reportin        requires each State to assess and report to
       g           EPA every two years on the condition of all
                   their water bodies. In the Assessment
                   Report, the State classifies each water
body as either “fully supporting,” “partially supporting,” or
“not supporting” its designated use. EPA then combines all
the State reports into a national report. This report is sent
to Congress, and is used by the Agency to measure its
performance towards achieving clean and safe water.

Section 303(d) of the Clean Water Act requires each State to
prepare a prioritized Impaired List of water bodies that do
not “fully support” their “designated use.” From this list the
States are required to develop “total maximum daily loads,”
which are allocations of how much pollution each
“discharger” will be allowed to release into each water body.

                 EPA awards grant funds to States under
   Funding       Section 106 of the Clean Water Act. These
                 grants subsidize a wide range of water

                   3
                           Report No. E1HWF7-03-0160-910018
                           quality program activities, including: developing and
                           reviewing standards; monitoring and assessing the water;
                           and, preparing the reports and documents required under
                           the Act.



                     Federal Funds Awarded Under Section 106
                        1995            1996            1997             1998            Total
 Maryland            $1,295,030       $1,269,656      $1,269,656       $1,452,123       $5,286,465

 Delaware                763,770         788,863         718,275                 01     $2,270,908

 District of             661,418         641,580         664,321          483,362       $2,450,681
 Columbia
 Pennsylvania          3,346,399       3,245,513       3,299,768        3,651,767      $13,543,447

 Virginia              1,943,839       1,863,883       1,863,883        1,993,427       $7,665,032

 West Virginia         1,032,619         991,144         991,144        1,293,675       $4,308,582

                                                                                       $35,525,115

1. Beginning in 1998, Delaware’s Section 106 funds were included in its Performance Partnership Grant
and therefore are not specifically identifiable.



Scope and                  We performed this audit according to the Government
Methodology                Auditing Standards (1994 Revision) issued by the
                           Comptroller General of the United States as they apply to
                           program audits. The audit included tests of the program
                           records and other auditing procedures we considered
                           necessary.

                           We began our review with a survey on August 13, 1997. As a
                           result of the survey we began an in-depth review on
                           February 2, 1998. We completed our audit fieldwork on
                           September 15, 1998.

                           For simplicity purposes we refer to the District of Columbia
                           as a “State,” because under the Clean Water Act, the District
                           has the same responsibilities and is subject to the same
                           requirements as a State.




                                                  4
                                                            Report No. E1HWF7-03-0160-910018
We concentrated our review on the State of Maryland’s water
quality program. However, as various issues arose, we
determined if programs in other States within Region III had
similar discrepancies.

Maryland’s water quality program responsibilities are
divided between the Maryland Department of the
Environment (MDE) and the Maryland Department of
Natural Resources (DNR). MDE fulfills most of the
regulatory responsibilities, including reviewing water quality
standards, conducting Triennial Reviews, preparing the
Impaired List of water bodies, and developing the “total
maximum daily loads.” DNR performs the majority of the
water quality monitoring responsibilities and prepares the
Assessment Report sent to EPA.

We reviewed the Clean Water Act, the CFR, the Water
Quality Standards Handbook, Guidance for Section 106 of
the Clean Water Act, Monitoring Strategy Guidance,
Guidelines for Preparation of 1996 State Water Quality
Assessments (Section 305(b) Reports), and Maryland’s Laws
and Regulations applicable to its water quality program.

To accomplish our objectives, we reviewed documents and
interviewed officials at: MDE, DNR, Region III’s Water
Protection Division and Environmental Services Division,
and EPA’s Office of Water.

We also reviewed correspondence between EPA and the
States within Region III applicable to water quality
standards, planning documents, and reports required under
Sections 305(b) and 303(d) of the Clean Water Act.

We selected a sample of 20 water bodies in Maryland to
evaluate the State process for sampling, assessing, and
reporting the water quality. We judgmentally selected this
sample to obtain a mixture of geographic location, size, and
reported water quality.

We reviewed internal controls and procedures specifically
related to our objectives. Although we used information from
Region III’s Permit Compliance System, we did not review
the controls associated with the input and processing of
information into this system. We also reviewed the Region’s


                   5
                           Report No. E1HWF7-03-0160-910018
               Water Protection Division’s Annual Reports on Internal
              Controls for fiscal years 1994 through 1997, that were
              prepared to comply with the Federal Manager’s Financial
              Integrity Act. None of the issues cited in this audit were
              disclosed in these reports.

              Due to the complexity of some water quality issues, we
              obtained technical assistance from the OIG Engineering and
              Science Staff. This technical assistance included: (1) a
              comparison of Maryland’s water quality criteria to EPA’s
              criteria; (2) an analysis of data from Maryland’s monitoring
              stations; and, (3) a review of the pollutants identified in the
              Permit Compliance System as being contained in Maryland’s
              pollution discharge permits.

              We issued the draft report on November 25, 1998. Maryland
              submitted its response on February 2, 1999. Region III
              submitted its response on February 23, and EPA’s Office of
              Water submitted its response on March 24, 1999. We
              changed the draft report where necessary, but our overall
              positions remained unchanged. We held an exit conference
              with Region III on March 16, 1999, with Maryland officials
              on March 24, and with EPA’s Office of Water on March 25,
              1999. The responses and our evaluation of these responses,
              are summarized at the end of Chapters 2 through 5 and
              provided in their entirety in Appendix A.


Prior Audit   Neither the OIG nor the U.S. General Accounting Office
Coverage      issued any reports related to water quality standards,
              monitoring, and reporting for any State in Region III.
              However, on January 15, 1997, Virginia’s Joint Legislative
              Audit and Review Commission issued a comprehensive
              report on water enforcement in the State.

              The OIG issued a report on Missouri’s water quality on
              March 31, 1998, and is currently auditing the programs of
              Arkansas, Colorado, Mississippi, New Jersey, Ohio, and
              Oregon. The OIG issued a report on March 27, 1997, entitled
              Region III Superfund Field Sampling Activities, which
              identified non-compliance with the requirement to prepare a
              Regional Quality Management Plan. Although this Plan has
              since been developed, our audit identified weaknesses in its
              implementation. See Chapter 5 for additional details.


                                 6
                                         Report No. E1HWF7-03-0160-910018
                     CHAPTER 2

BACTERIA IN WATER NOT ASSESSED OR REPORTED


          Elevated bacterial levels can be hazardous to people using
          water for recreational activities, such as swimming or water
          skiing. Bacteria can cause illnesses including sore throats,
          ear infections, diarrhea, gastroenteritis, meningitis, and
          encephalitis. The Clean Water Act requires EPA to develop
          and publish criteria for assessing water quality based on the
          latest scientific knowledge. States are then to adopt either
          these criteria, or criteria that are at least as protective as
          EPA’s. If a State does not adopt such criteria, then the Clean
          Water Act requires EPA to write a regulation to supersede
          the State’s regulation and ensure that the more protective
          criteria are used to assess water quality.

          In 1986, EPA published its Ambient Water Quality Criteria
          for Bacteria, which approved Enterococcus and E. coli as
          bacteriological indicators of harmful pathogens. However, as
          of 1998, Delaware is the only State within Region III to
          adopt either of these two approved Federal criteria. The
          remaining States use fecal coliform to assess their water
          quality. This occurred because the Agency implicitly allowed
          States to use the less protective criterion to assess the
          bacteriological quality of their water bodies. As a result,
          water bodies with harmful contamination may remain
          undetected and unreported, and the public may be
          unknowingly exposed to harmful bacteria.

          In addition to not adopting the Federal criteria, the State of
          Maryland did not implement its own criterion, or follow EPA
          guidance when assessing and reporting water bodies
          impaired by bacteria.

          The following chart shows the water quality criterion being
          used by each State within Region III, and whether the
          criterion was as protective as EPA’s.




                             7
                                     Report No. E1HWF7-03-0160-910018
                            STATE               CRITERIA               AS
                                             USED BY STATE         PROTECTIVE
                           Delaware             Enterococcus               Yes
                      District of Columbia     Fecal Coliform               No
                                              Fecal Coliform &
                           Maryland                                         No
                                              Sanitary Surveys
                         Pennsylvania          Fecal Coliform               No
                            Virginia           Fecal Coliform               No
                                              Fecal Coliform &
                                              Best Professional             No
                         West Virginia
                                                Judgement

                     Whether coincidental or not, it is interesting to note that
                     Delaware, which did adopt a Federal criterion, reported 84
                     percent of its assessed water bodies as impaired by bacteria,
                     whereas Maryland, which uses fecal coliform, reported less
                     than 1 percent of its assessed water bodies as impaired.

                                              DELAWARE          MARYLAND
                         Assessed Miles            651            17,000
                         Impaired Miles            548               5
                         Percent Impaired          84%               .03%

                                             MARYLAND

                     The Clean Water Act requires each state to assess and report
                     on the condition of its water bodies every two years. To
                     fulfill this requirement each state submits to EPA an
                     Assessment Report and an Impaired List. The Assessment
                     Report describes the quality of all water bodies, including
                     whether or not they are safe. This report is also made
                     available to the public. The Impaired List prioritizes for EPA
                     those water bodies classified as unsafe. The Impaired List
                     is especially important because it identifies the bodies of
                     water for which “total maximum daily loads” (TMDLs) must
                     be developed in order to clean up the contamination.1


1. The TMDLs restrict the amounts of pollution that each discharger can release
into a water body, and still allow it to 8be safe.
                                                Report No. E1HWF7-03-0160-910018
Accordingly, the Clean Water Act gives EPA the final
approval authority over each State’s Impaired List.

In Maryland, two state agencies use different interpretations
of the State’s criteria to determine if water bodies are
impaired. However, neither interpretation implements the
State’s criteria as written, resulting in insufficient data to
document impairments. Moreover, there was a difference of
opinion between the State and Region III as to what
constituted an impaired water body. As a result, Maryland’s
Impaired List did not include 185 water bodies that had
elevated bacterial levels. Furthermore, 62 of these 185 water
bodies were not identified as impaired on Maryland’s
Assessment Report.


      Maryland’s           According to Maryland’s water
    Water Quality          quality standard, a body of water
       Standard
                           will be presumed contaminated:


    (a)   If the fecal coliform density exceeds a log mean of
          200 per 100 milliliters, based on a minimum of at
          least five samples taken over any 30-day period;

    (b)   If 10 percent of the total number of samples
          taken during any 30-day period exceed 400 per
          100 milliliters; or,

    (c)   Except when a sanitary survey approved by
          the Department of the Environment discloses
          no significant health hazard, (a) and (b) does
          not apply.

                              Maryland’s Department of
   DNR Inadequately           Natural Resources (DNR) only
         Sampled              considers a water body as
                              impaired if: (1) it is a
                              “permitted” beach closed by a
                              local health department (in its
1996 Assessment Report DNR reported 25 such beaches as
impaired); or, (2) a sanitary




                   9
                           Report No. E1HWF7-03-0160-910018
                      survey2 confirms the impairment. But DNR reported no
                      water bodies as impaired due to elevated bacterial levels,
                      despite the fact that, according to other monitoring data
                      submitted by Maryland to Region III, there were an
                      additional 62 water bodies impaired due to elevated bacterial
                      levels.

                      During the audit, DNR personnel explained that they did not
                      perform sanitary surveys for elevated monthly bacterial data
                      because: (1) fecal coliform are not harmful bacteria, but
                      rather only an indicator of harmful bacteria; and, (2) any
                      bacterial contamination probably came from animal waste
                      which DNR assumed is harmless, rather than human waste
                      which is known to be harmful. We disagree with both of
                      DNR’s explanations.

                      First, although fecal coliform may not be harmful to humans,
                      they are called an indicator because they are typically found
                      in the presence of harmful bacteria and viruses.
                      Furthermore, Maryland’s own regulations establish fecal
                      coliform as the criterion to be used to measure water quality.
                      Second, we dispute the assumption that any bacterial
                      contamination must automatically come from an animal
                      rather than a human source. The only fact known at this
                      point is that bacterial contamination exists, not where it
                      originated.

                      In any event, Maryland did not conduct sanitary surveys
                      (except for permitted beaches and for the shellfish sanitation
                      program). According to DNR, such surveys are expensive.
                      However, each year between 1995 through 1997, Maryland
                      performed 5000 sanitary surveys to ensure that people did
                      not get sick from eating shellfish. Accordingly, we believe
                      there is justification for the extra expense of an additional 62
                      sanitary surveys, at the locations where elevated bacterial
                      levels were detected.

                                                  Maryland’s Department of the
                                MDE               Environment (MDE) considers a
                           Inadequately           water body as impaired by
                              Sampled
                                                  bacteria only if five samples
                                                  taken over the course of a month


2. A sanitary survey is an investigation to determine how fecal coliform bacteria
entered a water body.

                                         10
                                                  Report No. E1HWF7-03-0160-910018
                       indicate elevated bacterial levels (i.e., paragraph (a) of
                       Maryland’s water quality standards). Using this
                       measurement, MDE reported 51 water bodies as impaired by
                       bacteria on its 1998 Impaired List, despite the fact that,
                       according to other monitoring data3 submitted by Maryland
                       to Region III, there were 185 additional water bodies
                       impaired due to elevated bacterial levels. This discrepancy
                       occurred because Maryland does not routinely follow its own
                       standard, i.e., to take five samples from a water body over
                       the course of a month. Rather, it usually takes nine to
                       twelve samples per year, usually one each month.

                       Region III was aware that MDE had not included
                       contaminated water bodies on its Impaired List. On April
                       17, 1998, the Region notified MDE of 193 water bodies which
                       should be added to the list because of bacterial
                       contamination. However, when MDE asserted that there
                       was insufficient data for the vast majority of the water bodies
                       to be added to the list, the Region consented with MDE’s
                       promise to do additional testing. We disagree with this
                       decision. We believe the Region should have insisted that
                       185 of the 193 water bodies be listed as impaired for
                       bacteria4 until MDE performed the additional testing as
                       promised. In light of the fact that Maryland does not
                       routinely follow its own standard, we do not agree that
                       insufficient data should have been accepted as a valid
                       excuse.

Conclusion             Elevated bacterial levels can be hazardous to people using
                       the water for recreational activities. It can cause various
                       illnesses ranging from sore throats to meningitis or
                       encephalitis. The Clean Water Act requires EPA to develop
                       criteria for assessing water quality and requires the States to
                       adopt these criteria, or criteria that are at least as effective.
                       Twelve years has elapsed since EPA revised its bacterial
                       criteria, but only one state within Region III, Delaware, has
                       adopted the approved criteria, which is based on the latest
                       scientific knowledge. The District of Columbia, Maryland,
                       Pennsylvania, Virginia, and West Virginia did not. Finally,
                       in lieu of adopting the Federal bacterial criteria, the State of

3. Other data includes MDE fecal coliform data from STOrage and RETrieval System
(STORET), 1995 Maryland Biological Stream Survey data, the 1996 Assessment Report (305b
report), and the “Water Body System” database.

4.   We concur that 8 of the 193 water bodies should not have been listed.

                                          11
                                                   Report No. E1HWF7-03-0160-910018
                   Maryland professed to follow its own. But, it did not do so.
                   Consequently, Maryland’s reports to EPA understated the
                   number of water bodies with elevated bacterial levels, a
                   condition that will delay the development of remedies to
                   curtail contamination.


Recommendations We recommend that the Assistant Administrator for Water
                work to ensure that:

                   2.1 If States do not amend their water quality standards to
                       include the Agency’s 1986 Ambient Water Quality
                       Criteria for Bacteria, appropriate action is taken to
                       resolve the deficiency.

                   We recommend the Region III Administrator:

                   2.2 Ensure that Maryland completes its 1999 Triennial
                       Review and resolves all standards issues, including
                       bacteria.

                   2.3 Ensure that Maryland implements its bacterial
                       standards as written. Specifically,

                            (a)       DNR should either not require a sanitary
                                      survey to confirm contamination, or
                                      perform the surveys whenever testing
                                      reveals elevated bacterial levels.

                            (b)       MDE should follow Maryland standards
                                      as written and assure that five samples
                                      be collected in a thirty-day period for
                                      making decisions to add water bodies to
                                      the Impaired List.

                   2.4 Take appropriate action if Maryland does not
                       implement its own regulations. Such actions could
                       include withholding Section 106 funding, elevating the
                       issue to the Administrator, or not approving the State’s
                       Impaired List.




                                     12
                                              Report No. E1HWF7-03-0160-910018
EPA Office of Water Response to the Draft Report

Background

     The fecal coliform bacteria enumeration test was developed in the 1960s as a
replacement for the total coliform test in sewage and in sewage-polluted ambient
water. It was shown to be more specific to warm-blooded animal fecal waste than
total coliform. As a result, the presence of fecal coliform bacteria was the indicator
selected by the Environmental Protection Agency (EPA) and its predecessor Agency
and published as part of the 1968 Water Quality Criteria and the 1976 Quality
Criteria for Water. Fecal coliform is also designated a conventional pollutant in
Section 304(a)(4) of the Clean Water Act. Following the enactment of the 1967 and
1972 Federal water pollution control acts and their requirements for water quality
standards adoption by the States, the use of the fecal coliform test by the States
was almost universal.

     EPA’s seminal studies of enteric disease in recreational swimmers in the 1970s
were the first such studies to use epidemiological techniques to statistically
demonstrate which bacterial indicators provide correlation with gastroenteritis
incidence. These studies used new laboratory methods to measure Escherichia coli,
the coliform bacteria always present in warm blooded animal feces, and enterococci,
a small subgroup of 4 species which, while within the much larger fecal streptococci
group, are virtually always found in warm blooded animal feces. Statistically
significant correlations were determined and criteria developed that were based on
swimmer illness rates as a function of indicator bacterial densities in ambient
waters -- that is, on a risk basis. Moreover, it was found that fecal coliform, while a
valid indicator of the presence of fecal material, did not correlate with swimmer
illness rates. The 1986 criteria document used this research to present criteria that
were roughly equivalent in stringency to the previously recommended fecal coliform
criteria.

     EPA encouraged the States to change to the new indicators to take advantage
of their improved ability to base decisions on swimmer illness risks. For example,
beginning with the Federal Register Notice announcing the availability of the
criteria document that encouraged quick State adoption (51 FR 8012, March 7,
1986), to a more recent letter (January 13, 1997) from the Assistant Administrator
for Water urging States to adopt the new indicators (copy attached). While a
number of States have done so, more than two-thirds have not. The States that
have not adopted the new criteria have cited a number of perceived problems.
Among these are the following: the drinking water program still uses total coliform
and fecal coliform (E. coli is now an option, however), making additional demands
on laboratories; the enumeration methods for E. coli and enterococci are not in the
Agency’s methods at 40 CFR Part 136 and thus may pose problems if used in



                                          13
                                                   Report No. E1HWF7-03-0160-910018
NPDES permits; and they have long records using fecal coliform and do not wish to
change indicators.

EPA’s Current Plans

      OW agrees with the concerns expressed in the OIG’s draft report. EPA
recognizes that it is important for States to adopt microbiological water quality
criteria that adequately protect designated uses. For these reasons, the President
included specific provisions concerning beach protection in the Clean Water Action
Plan that he issued in February 1998. In response to the Action Plan, EPA recently
completed an Action Plan for Beaches and Recreational Waters that includes a
renewed commitment to encouraging State adoption of updated criteria to protect
beaches. OW will provide OIG with a copy of this Action Plan as soon as copies
have been printed. In the Action Plan, EPA commits to several steps in the near
future regarding water quality criteria. These steps include conducting a literature
review and analysis to verify the continuing scientific soundness of the 1986
criteria; notifying the States of EPA’s intention to make a finding that use of fecal
coliform criteria alone will not support the primary contact designated use
(presuming that position is justified by the review), and initiate a Federal
promulgation to impose the 1986 E. coli and/or enterococci criteria in addition to or
in place of outdated fecal coliform criteria where necessary. EPA is also committed
to promulgating the enumeration methods for E. coli and enterococci into 40 CFR
Part 136 prior to any Federal promulgation for a State.

Office of Water Summary

      OW believes that EPA’s planned actions described above will achieve the OIG’s
recommendations on a reasonable time schedule. At the completion of the Clean
Water Action Plan’s and the Beach Action Plan’s measures for beach protection, all
of the States will have the recommended bacterial indicators in place. At that point
all of the States will be capable of using E. coli or enterococci for purposes of section
305(b) reporting, and the draft OIG report’s concern about State reporting of
bacterial impairments will be moot.

OIG Evaluation of Office of Water Response

As explained in the Office of Water response, the fecal coliform bacteria
enumeration test was developed in the 1960's. EPA studies of enteric disease in
swimmers in the 1970's using E. coli and Enterococci found that fecal coliform did
not correlate with swimmer illness rates. Consequently, in 1986 the Agency
encouraged the States to adopt these new indicators to take advantage of their
improved ability. In response to a Clean Water Action Plan issued by the President
in 1998, EPA completed an Action Plan for Beaches and Recreational Waters, and



                                           14
                                                    Report No. E1HWF7-03-0160-910018
plans to initiate a Federal promulgation to impose the 1986 E. coli and/or
Enterococci criteria where necessary.

During the exit conference, the Office of Water provided an excerpt from the Action
Plan for Beaches and Recreational Waters, in which it was stated that:

         Where a State does not amend its water quality standards to
         include the 1986 criteria, EPA will act under Section 303(c) of
         the Clean Water Act to promulgate the criteria with the goal of
         assuring that the 1986 criteria apply in all States not later than
         2003.

The issuance of this plan should achieve the intent of our recommendation. Thus,
no further action is necessary.

Region III Response to the Draft Report

The Region concurred that there were inconsistencies in the bacteria criteria
adopted by Region III States, and that EPA has not taken formal action to
disapprove States’ standards when Enterococcus and E. coli were not adopted to
replace fecal coliform criteria.

The Region believes that State Triennial Reviews, rather than Impaired Lists, are
the appropriate vehicle for disputing the appropriateness of specific State water
quality standards. Moreover, the Region asserted that it is appropriate for a State
to base its Impaired List on its interpretation of its own standards, i.e., Maryland’s
explanation that because fecal bacteria measurements are known to be highly
variable, no less than five samples per month be taken.

The Region agreed that follow-up is necessary to assist Maryland in providing
resources for additional testing.

The Region did not address our recommendation that it issue a deficiency notice to
Maryland based on how the State implements its standards regarding DNR
performing sanitary surveys. That is why we reiterated this recommendation in the
final report. Also, we added a similar recommendation regarding MDE collecting a
sufficient number of samples to add water bodies to the Impaired List.

Maryland Response to the Draft Report

Maryland agreed that the bacteriological criterion needs to be revised and that
monitoring for bacteria needs to be modified to better implement the standard.
Maryland disagreed that its standards are less protective than those recommended



                                          15
                                                   Report No. E1HWF7-03-0160-910018
 by EPA, and that additional waters should be added to the Impaired List. The
response contained a table showing the specific water bodies that were not listed
because “there is insufficient data to determine a violation of water quality.” (See
Appendix A). “However, through the current Triennial Review, Maryland will
explore the feasibility of adopting a fecal coliform standard using the Enterococcus
and E. coli indicators in primary contact waters.”

Regarding implementing its own standards, Maryland agrees that it does not do
statewide sanitary surveys. However, local health Departments do conduct the
surveys, both for enforcement of bathing beach standards and to survey needs with
respect to septic systems.

Based on comments received from EPA in its review of the 1998 Impaired List,
Maryland has agreed that a review of the bacterial regulations and bacterial
sampling protocols is warranted and will be pursued in the ongoing Triennial
Review process.

OIG Evaluation

Our finding acknowledged that 25 “permitted” beaches and five miles of other water
bodies were listed as impaired on the Assessment Report. However, these 25
beaches represent only a small portion of the State’s water bodies. Our concern is
about the other 62 water bodies, which monitoring data submitted by the State
indicated were also impaired. These water bodies were not included on the
Assessment Report because there was insufficient data to confirm impairment. As
explained in our finding, this lack of information arose because the State did not
implement its own standards, i.e., DNR did not take the required number of
samples and MDE used this lack of data as a reason to not report impairments.
That is why we are recommending that the Region take other actions in the future
such as withholding Section 106 funding, elevating the issue to the Administrator,
or not approving the State’s Impaired List if Maryland continues to not implement
its own bacterial standards.

In our draft report recommendations, the OIG gave the Region the option to either
rescind the approval of the 1998 Impaired List, or to assure that the additional
monitoring promised by Maryland is promptly carried out. We do not agree with
the Region that the Impaired List is not a proper vehicle to dispute the
appropriateness of specific state water quality standards. Inadequate standards
(and in this case improperly implemented standards) undermine the CWA’s goal of
obtaining water quality which provides for the protection of recreation in and on
the water. We also do not agree that insufficient data is an appropriate
justification to exclude water bodies from listing the waters as impaired, especially
when other monitoring data shows impairment.



                                          16
                                                  Report No. E1HWF7-03-0160-910018
We agree the Triennial Review process provides EPA with the authority to rectify
inadequate state water quality regulations. However, it should be pointed out that
Maryland has not completed any Triennial Reviews since 1990, with no
consequences from EPA. We understand from the responses that Maryland agrees
it needs to address the issue of insufficient data to list water bodies as impaired,
and that the Region agrees that it has to follow up on this issue. We also
understand that Maryland has just begun a 1999 Triennial Review. To ensure that
Maryland has sufficient data to list water bodies, we believe the Region should help
the State address this issue and follow its standards as written.




                                         17
                                                 Report No. E1HWF7-03-0160-910018
[This page was intentionally left blank.]




                   18
                            Report No. E1HWF7-03-0160-910018
                    CHAPTER 3

DEFICIENT STANDARDS WERE NOT CORRECTED


        Water quality standards in Maryland, Delaware,
        Pennsylvania, Virginia, West Virginia and the District of
        Columbia were inadequate in 1998, even though some
        deficiencies were identified as far back as 1990.
        Consequently, State standards do not protect the waters in
        Region III as intended by the Clean Water Act, and the
        Agency risks being sued for not promulgating adequate
        water quality standards.

        This occurred because Region III did not fully use its
        authority, or fulfill its responsibility, to ensure that deficient
        standards were corrected. Specifically, Region III did not
        notify States of their deficiencies, or elevate these issues to
        the EPA Administrator, who then would have had the
        authority to promulgate adequate standards. Despite the
        longstanding deficiencies, we noted only one instance where
        the Region issued a formal deficiency notice. Also, there was
        only one instance where the Region elevated a standard to
        the EPA Administrator for promulgation, and this occurred
        only because of a court order resulting from a lawsuit filed
        against the Agency by an environmental group.

        Water quality standards consist of three elements:

             (1)   A “designated use” - protection of aquatic life
                   and recreation, and may include drinking
                   water.

             (2)   The “water quality criteria” necessary to
                   protect the designated use.

             (3)   An “anti-degradation policy” to ensure
                   that water quality is conserved,
                   maintained, and protected.




                            19
                                     Report No. E1HWF7-03-0160-910018
            Chapter 6 of EPA’s Water Quality Standards Handbook
            outlines the process for promulgating new standards. The
            Handbook stipulates that although only the EPA
            Administrator may actually promulgate the standards, the
            Regional Offices also have a major role, i.e., to notify the
            States of deficiencies, or if necessary elevate the issue to the
            EPA Administrator.

Deficient   Three deficiencies in Maryland’s water quality standards
Maryland    remained uncorrected since 1990 (the date of the last
Standards   completed Maryland Triennial Review). These deficiencies
            relate to: the criteria for toxic pollutants; and, anti-
            degradation policy and procedures.

                                  The first deficiency regards the lack of
                                  adequate numeric water quality criteria
                 Missing
                                  for toxic pollutants. A numeric criterion
                 Criteria
                 for Toxic        is the level of contamination which may
                 Pollutant        be present in the water body without
                 s                impacting its designated use. Section
                                  303(c)(2)(B) of the Clean Water Act
                                  requires the States to adopt criteria for
            all toxic pollutants pursuant Section 307(a)(1) for which EPA
            has published criteria under Section 304(a), the discharge or
            presence of which in the affected waters could reasonably be
            expected to interfere with those designated uses adopted by
            the State. Agency guidance proposed three options to meet
            this requirement. Maryland selected the option which only
            required it to adopt numeric criteria for the toxic pollutants
            listed in Section 307(a). According to EPA’s database of
            permits issued by Maryland to its dischargers, there are 62
            such toxic pollutants. However, although Maryland requires
            its dischargers to test for these pollutants, its standards
            provide numeric criteria for only 20 of these 62 pollutants.

            According to Maryland Department of the Environment
            personnel, the State chose not to adopt the EPA criteria for
            the remaining 42 pollutants because it: (a) questioned the
            science EPA used to develop the criteria; and, (b) feared
            being sued by dischargers if the science proved to be invalid.
            These misgivings notwithstanding, the fact remains that the
            Clean Water Act mandates that each State either adopt
            criteria as



                               20
                                        Report No. E1HWF7-03-0160-910018
protective as EPA’s, or develop its own scientifically
defensible criteria.

                   The second deficiency is that Maryland’s
                   numeric criteria for 15 metal pollutants
   Incorrect
   Criteria        are set at incorrect levels. Specifically,
   for Toxic       the State set criteria at numeric levels
   Pollutant       that EPA recommends for “total
                   recoverable” units, but then adopted
                   these numeric levels as “dissolved” units.
                   The net effect is that the numeric levels
set by Maryland may be less stringent than the levels
currently recommended by EPA. Consequently, the State’s
standards may allow more pollution from metals to be
present in the water than EPA has determined is
appropriate to ensure aquatic life is adequately protected.

                       The third deficiency in Maryland’s
                       standards relates to its anti-
       Anti-           degradation policy. In accordance with
   degradation         Title 40 of the Code of Federal
      Policy           Regulations (CFR) 131.12, each State
                       is required to develop such a policy and
                       identify methods to implement it in
order to ensure that water quality improvements are
conserved, maintained, and protected. In particular, a
State’s anti-degradation policy and implementing procedures
must maintain and protect high quality waters which
constitute an Outstanding National Resource, such as waters
of National and State parks and wildlife refuges. In 1990,
Region III conditionally approved Maryland’s standards
related to its anti-degradation policy, with the understanding
that the State would revise its policy to include provisions for
Outstanding National Resource waters and develop the
required implementation procedures by January 1, 1991.
However, as of 1998, Maryland has fulfilled neither of these
conditions.

                        Maryland Summary

Over an eight-year period, the Region has periodically
reminded Maryland personnel about deficiencies in their
water quality standards requiring attention. During our
field visit, Maryland personnel referred to the Region’s
current


                   21
                             Report No. E1HWF7-03-0160-910018
                    letter as “EPA’s wish list,” because it neglected to prioritize
                    or otherwise highlight which deficiencies should be remedied
                    first. Region III personnel explained that the reminder
                    letters were somewhat “nebulous”; they referred to “goals”
                    that EPA “preferred” to see added to the standards, rather
                    than to deficiencies that required correction. Consequently,
                    we believe that the Region should send clearly written
                    deficiency notices, separate from any letters requesting the
                    fulfillment of optional goals.

Deficiencies in                        In 1993, EPA identified a number of
Other States                           deficiencies within Delaware’s water
Within Region III      Delaware        quality standards program. After five
                                       years of discussion between the State and
                                       the Region, many of the deficiencies still
                    remain uncorrected. In April 1998, the Region notified the
                    State that it intended to recommend that the EPA
                    Administrator promulgate replacement standards if the
                    State did not make recommended corrections. According to
                    regional personnel, Delaware agreed to hold public hearings
                    in October 1998 regarding its deficient regulations.
                    However, as of March 1999, it has yet to schedule the
                    hearings, and EPA has taken steps to promulgate some of
                    the deficient standards.

                                       Since 1994 the District of Columbia’s
                                       water quality standards contained many
                       District        deficiencies. In 1998, the Region reviewed
                           of          the District’s draft revisions to their
                                       standards and concluded that several, but
                                       not all, of the items had been corrected.
                    However, the Region allowed four years to elapse, and the
                    District’s standards have yet to be finalized.

                                        In 1994 Region III determined that
                      Pennsylvan        Pennsylvania’s standards were
                      ia                inadequate for two reasons. After two
                                        years and a lawsuit filed by an
                                        environmental group, EPA finally
                                        corrected one of these deficiencies by
                    promulgating the required standard. However, the
                    remaining deficiency has yet to be corrected.




                                      22
                                               Report No. E1HWF7-03-0160-910018
                                 Since February 1990, Virginia’s water
                 Virginia        quality standards have included criteria
                                 for bacteria that are less protective than
                                 EPA’s published level. This is significant
                                 because an incorrect standard may allow
             elevated bacterial levels (a human health threat) to go
             unreported and uncorrected.

                                In 1993 the Region identified many
                   West         deficiencies with West Virginia’s
                Virginia        standards. In 1995, the State submitted
                                its Triennial Review package which
                                enabled the Region to approve some of the
             revised standards. On July 14, 1998, West Virginia
             submitted a new Triennial Review package. As of February
             1999, the Region has completed its review of this package
             and is awaiting EPA Headquarters review and concurrence.

Region III   Regional personnel offered various explanations why
Position     deficiencies in standards remained uncorrected including:

                 ‚    The belief that it was better to afford States the
                      opportunity to correct their own standards.

                 ‚    The reluctance to encourage changes in a political
                      environment that may have resulted in the
                      elimination of some State standards that were
                      more aggressive than EPA’s.

                 ‚    A hesitancy to take action against States within
                      Region III when similar deficiencies were being
                      overlooked in other EPA Regions.

                 ‚    The opinion that in some instances, e.g., anti-
                      degradation implementation procedures, EPA
                      Headquarters would not know what to promulgate.

                 ‚    The Regions and EPA Headquarters lack personnel
                      and funding necessary to promulgate regulations
                      when a State fails to do so.




                               23
                                        Report No. E1HWF7-03-0160-910018
Conclusion            Deficient State water standards within Region III remained
                      uncorrected for as long as eight years. In our opinion, the
                      primary reason for this situation was because the Region did
                      not fully use its authority or fulfill its responsibility to
                      ensure that deficient standards were corrected.
                      Notwithstanding the explanations provided by regional
                      personnel, we do not believe they justify leaving standards
                      uncorrected for years. Accordingly, the Region needs to take
                      appropriate actions to obtain compliance by the States to
                      better protect bodies of water as intended in the Clean Water
                      Act. Such actions would include preparing clearly written
                      notices to the States and elevating issues to the EPA
                      Administrator if a State fails to correct inadequate
                      standards.


Recommendations We recommend the Region III Administrator:

                      3.1 Send clearly written notices to States identifying
                          inadequate standards.

                      3.2 Coordinate with EPA Headquarters to promulgate
                          standards if States do not correct the inadequacies
                          identified in the written notices.

                      3.3 Initiate action to identify what toxic pollutant water
                          quality criteria are necessary, if the 1999 Maryland
                          Triennial Review fails to do so.


Region III Response to the Draft Report

EPA Region III agrees that the Region III States have not been timely in
completing Triennial Reviews and, as a result, deficiencies now exist in standards
that were previously approved. Also, EPA agrees that there are State standards
which were disapproved for which EPA Region III has not pursued Federal
promulgation by the Administrator. EPA Region III is aggressively pushing the
States to move to correct outstanding disapprovals and to initiate Triennial
Reviews. Triennial Reviews have been completed in Virginia and West Virginia,
with the approval/disapproval determinations pending.

The draft report noted that EPA Region III did not elevate these issues to the EPA
Administrator, who would then have the authority to pursue Federal promulgation,



                                         24
                                                 Report No. E1HWF7-03-0160-910018
although not the obligation. EPA Region III agrees with the importance of
notifying the States when changes are needed and also to selective use of Federal
promulgation where other efforts have failed.

Maryland Response to the Draft Report

In its response, Maryland offered several arguments disputing that it needed
additional criteria for toxic pollutants. These arguments included, just because a
permit requires monitoring for a pollutant, it does not mean the pollutant is always
present. Also, the presence of a toxic pollutant in a facility’s discharge does not
automatically require adoption of a criterion. Instead, professional judgement must
be applied to make that determination and be confirmed by monitoring. Moreover,
a pollutant may be included in a permit as a “technology-based limit” required by
Federal guidelines.

Maryland also disputed that it should have corrected the criteria for metal
pollutants because EPA published its “interim final rule” in 1995 and its “most
recent final guidance on metal conversion factors” in 1998. Given these facts
Maryland asserted that we were premature in concluding that its metals criteria is
deficient.

OIG Evaluation

On June 25, 1992, the Region notified Maryland that its 1993 Triennial Review
needed to review additional or revised water quality criteria for toxic pollutants. In
a follow-up meeting on October 21, 1992, the Region again noted that the State
needed additional or revised numeric criteria for toxic pollutants. This same issue
resurfaced as recently as March 2, 1998, when Region III requested the State to
complete its long overdue Triennial Review.

We reviewed Maryland’s arguments for not adopting EPA’s criteria, or developing
its own criteria for the 42 pollutants discharged into Maryland waters. We agree
the State made several valid points regarding why pollutants are listed in permits.
However, Maryland fails to categorically confirm that these toxic pollutants are not
affecting water quality, or are not present at a level to warrant concern. This is the
reason why we added a recommendation for the Regional Administrator to ensure
that this issue is resolved during the 1999 Triennial Review.

Regarding Maryland’s metal criteria being deficient, our position remains
unchanged. Admittedly EPA took some time to formally publish its final guidance
on metals. However, our conclusion that the State’s metal criteria is deficient is
hardly premature, in light of the fact that Region III had arrived at the same
conclusion in 1990, nine years earlier.



                                          25
                                                   Report No. E1HWF7-03-0160-910018
Because Maryland agreed it would address the designation of Outstanding
National Resource Waters during its 1999 Triennial Review, no further action is
needed for that issue.

During our exit conference, Maryland MDE officials asserted that the State is
addressing the toxicity issue with Whole Effluent Toxicity testing of permitted
effluents, and an ambient toxicity program, funded by EPA’s Chesapeake Bay
Program, which monitors the tidal portion of the Bay and its tributaries. This
notwithstanding, we still believe that the ambient toxicity testing program must be
expanded to include non-tidal waters and to provide more frequent sampling.




                                        26
                                                 Report No. E1HWF7-03-0160-910018
                      CHAPTER 4

MISSED OPPORTUNITIES TO CORRECT STANDARDS


           In addition to adopting water quality standards into law, the
           Clean Water Act requires each State to: (a) hold public
           hearings at least every three years to review the standards;
           and, (b) submit the results of these reviews to the
           Administrator of EPA. The purpose of these “Triennial
           Reviews” is to determine the need for additional standards or
           for the revision of existing standards. Thus if hearings are
           not held and standards not reviewed, the public and EPA
           have less assurance as to the adequacy of State water quality
           standards. At the time of our audit, West Virginia was the
           only State within Region III to have completed its Triennial
           Reviews. The other States did not complete their reviews
           because the Agency has not enforced its authority under the
           Clean Water Act.

           The following table shows when each State conducted its last
           review, when its next review was due, and how many years
           the review is overdue as of 1998.

                             TRIENNIAL REVIEWS

            STATE               LAST           REVIEW         YEARS
                               REVIEW           DUE            LATE
      Maryland               April 1990      April 1993          5
      Delaware               February 1990   February 1993       5
      District of Columbia   March 1994      March 1997          1
      Pennsylvania           March 1994      March 1997          1
      Virginia               May 1992        May 1995            3
      West Virginia          August 1995     August 1998          0

           We were given various reasons why States neglected to hold
           the public hearings and review their water quality
           standards.


                              27
                                      Report No. E1HWF7-03-0160-910018
Region III personnel informed us that Triennial Reviews are
perceived as a low priority, EPA has a policy to work as
“partners” with the States, and as long as a State makes
“good progress,” the Region will not elevate the issue to EPA
headquarters.

                  In order to fulfill its requirements, the
                  State needed to: (a) notify the public of the
   Marylan        review and solicit suggestions for revisions;
                  (b) review its standards for specific Clean
                  Water Act requirements; (c) hold public
hearings on the proposed revisions; and, (d) submit the
revisions to EPA for approval. Region III concluded that
Maryland had missed both its 1993 and its 1996 Triennial
Reviews. However, Maryland asserted it fulfilled the 1993
requirement because: (a) all State regulations, including
water quality standards, are continuously open for public
comment; (b) the State is required to review and evaluate all
regulations every eight years; and, (c) Maryland submitted
revised standards to Region III as a result of lawsuit
negotiations with six industries.

We concur with the Region that Maryland did not fulfill its
Triennial Review requirements. The continuous public
comment period does not meet the Clean Water Act
requirement for public hearings on all State’s water quality
standards. In addition, the eight-year regulatory review
clearly does not meet the three-year requirement of the Act.
Finally, the revisions submitted by Maryland to EPA only
addressed the standards revised as a consequence of the
lawsuit. The Clean Water Act requires that all water quality
standards be reviewed.

Over a five-year period (1994 through 1998), Maryland
repeatedly agreed to conduct the 1996 Triennial Review, as
part of activities funded by the grant EPA awarded to the
State under Section 106 of the Clean Water Act.
Nonetheless, even though the State received more than $5
million during this period, it never initiated the review. In a
letter dated March 30, 1998, Maryland included yet another
“tentative schedule” to complete the review by August of
1999 -- the due date for the next Triennial Review.




                   28
                           Report No. E1HWF7-03-0160-910018
                  During our field visit, we were informed by Maryland
                  Department of Environment personnel that the State was
                  reluctant to conduct reviews in fear of being sued either by
                  industry if water quality standards were increased, or by
                  environmental groups if the standards were made less
                  protective.

                                           Similar to Maryland, Delaware also
                       Delaware            submitted certain revised standards to
                                           the Region in 1993, but again only as
                                           a result of a lawsuit. Hence, these
                                           revised standards do not satisfy the
                  Clean Water Act requirement because public hearings were
                  limited to the specific standards litigated.

                                         The District completed a Triennial
                                         Review in March 1994 after not
                     District of         having submitted revised standards
                       Columbia          since the mid-1980s. Although the
                                         next review was due in March of 1997,
                                         the Region does not expect to receive
                                         the final revisions until fall 1999.

                                         The Commonwealth should have
                     Pennsylvani         submitted a Triennial Review in March
                    a                    1997. According to regional personnel,
                                         Pennsylvania has been directing its
                                         resources to modifying its regulations.
                  Upon completion, the Commonwealth intends the modified
                  regulations to constitute fulfillment of the Triennial Review
                  requirement.

                                        Virginia completed its last Triennial
                      Virginia          Review in May 1992. Revisions to its
                                        water quality standards were made in
                                        1995, but not submitted to EPA until
                                        August 1998. According to Region III
                  personnel, the revised regulations have been submitted to
                  EPA Headquarters for review and concurrence.

Consequences of   The purpose of adopting water quality standards into law is
Late Reviews      to protect water bodies. The purpose of holding public
                  hearings to review these standards at least every three years



                                    29
                                             Report No. E1HWF7-03-0160-910018
                   is to determine which standards may need revision. Such
                   revisions may be warranted for reasons including: new
                   scientific and technical data; environmental changes;
                   changes in laws and regulations; or, improvements to the
                   quality of a water body that require more stringent
                   standards to maintain the improvements. For example, as
                   discussed in Chapter 3, since 1990, Maryland’s standards
                   have included an inadequate anti-degradation policy.
                   Moreover, its incorrect criteria for metal pollutants may have
                   enabled industry to discharge more pollution into Maryland
                   waters than allowed under the Clean Water Act.

                   Holding public hearings and reviewing water quality
                   standards at least every three years is not a voluntary
                   process; it is mandated under the law, and individual States
                   as well as EPA have been sued in the past regarding lapses
                   of adherence to the Clean Water Act.

                   Section 106(e) of the Clean Water Act stipulates that EPA
                   should not award grants if a State fails to carry out its
                   program. Between 1995 and 1998, the Agency awarded more
                   than $35 million in grants funds to the States in Region III
                   to manage their water quality programs. Section 303(c)(1)
                   requires States to hold public hearings at least every three
                   years to review standards. Section 303(c)(4) enables EPA to
                   take action should a State neglect to do so. Section
                   303(c)(4)(B) specifies that the Administrator shall promptly
                   prepare and publish proposed regulations . . .

                            In any case where the Administrator
                            determines that a revised or new
                            standards is necessary to meet the
                            requirements of this Act.




Recommendations We recommend the Region III Administrator:

                   4.1 Request the Administrator of EPA to consider initiating
                       Clean Water Act 303(c)(4)(B) actions against Delaware,
                       the District of Columbia, Pennsylvania, and Virginia.




                                     30
                                              Report No. E1HWF7-03-0160-910018
                      4.2 Withhold a portion of Section 106 funding from any
                          State whose Triennial Review is overdue.


Region III Response to Draft Report

The draft report recommends that the Administrator be requested to initiate
Triennial Reviews in Maryland, Delaware, the District of Columbia, Pennsylvania
and Virginia. Region III believes it is more appropriate to initiate a 303(c)(4)(B)
action which allows other options such as recommending that the Administrator
make a finding of deficiency and promulgate appropriate standards.

The draft report recommended withholding Section 106 funding from any state
whose Triennial Review is overdue. The Region is considering this and has done so
in the past.

Maryland Response to the Draft Report

Due to the litigation that developed challenging the legality of the regulations
adopted during the last Triennial Review and the subsequent revisions to water
quality regulations, the schedule was disrupted with EPA's full knowledge. The
State anticipates that future Triennial Reviews will be held in a timely manner.
Maryland has initiated its current Triennial Review in response to a request from
Region III. Hearings for the public involvement component began in mid-January,
and a review in response to Region III's specific concerns is well underway.

OIG Evaluation

We concurred with the Regional Administrator’s suggestion and adjusted our
recommendation accordingly. We deleted the State of Maryland from the
recommendation because it started a Triennial Review.

As the Region is still considering withholding Section 106 funding, we retained our
original recommendation.




                                         31
                                                  Report No. E1HWF7-03-0160-910018
[This page was intentionally left blank.]




                   32
                            Report No. E1HWF7-03-0160-910018
                              CHAPTER 5

PLANNING DOCUMENTS NOT PREPARED OR UPDATED


                  States in Region III did not prepare or update water quality
                  planning documents as required by the Clean Water Act and
                  by Federal regulations. This occurred for several reasons.
                  Regional personnel argued that certain documents were not
                  actually required to be submitted, or that other documents
                  were suitable substitutes. Also, the responsibility for
                  approving some documents shifted to regional personnel who
                  lacked training. The absence of these documents lessens
                  confidence that States are effectively managing their
                  programs to clean up water bodies. As we explained in
                  Chapter 1 of this report, Federal funds are provided by
                  Section 106 of the Clean Water Act. These funds subsidize
                  State programs to fulfill Clean Water Act requirements, one
                  of which is to submit these documents. Moreover, the
                  absence of Continuing Planning Process documents has
                  resulted in lawsuits against EPA in Delaware, Maryland,
                  Pennsylvania, and Virginia.


                     SUMMARY OF STATE COMPLIANCE

                                                            Quality Assurance

   States       Continuing   Water Quality
                 Planning    Management      Monitoring   Management    Project
                 Process         Plan         Strategy       Plan        Plans

 Maryland         1986           No             No           No          Yes
  Delaware        1998           No             No           No          Yes
 District of       No            No            1988          No          Yes
 Columbia

Pennsylvania      1998           No            1993          No          Yes
  Virginia        1974           No            1990         1998         Yes
West Virginia     1979           No             No           No          Yes



                                      33
                                               Report No. E1HWF7-03-0160-910018
Continuing         The Clean Water Act and 40 CFR Part 130.5 require States
Planning Process   to establish and maintain a Continuing Planning Process
Documents          (CPP). Also, EPA is required by the CFR to periodically
                   review each of these documents for accuracy. Although each
                   State in Region III did develop a CPP in the 1970s, they did
                   not maintain them, and the Region did not review them. In
                   four instances EPA was sued by environmental groups over
                   deficiencies related to these documents. In response to these
                   lawsuits, the Region attempted to review CPPs. However,
                   regional personnel were unable to do so, because they could
                   not locate the documents.

                   The purpose of a CPP is to outline the management processes
                   for a State’s water quality program. For example, such
                   processes relate to water quality standards and Triennial
                   Reviews, which as discussed in Chapters 3 and 4 of this
                   report, are areas with which States have experienced
                   problems. The CPP also addresses how a State will develop
                   total maximum daily loads (TMDLs), i.e., the maximum
                   amount of pollution that is acceptable in each water body.
                   That TMDLs are essential is evidenced by the fact that the
                   Agency has been sued by environmental groups in 35 States,
                   because it did not develop TMDLs when States failed to do
                   so.

Water Quality      Title 40 CFR Part 130.6 requires each State to develop a
Management         Water Quality Management Plan, the purpose of which is to
Plans              prioritize water quality problems, consider solutions, and
                   recommend remedies. However, none of the States within
                   Region III developed these plans. Moreover, the Region did
                   not request such plans based upon the assumption that
                   various other documents developed by the States fulfilled the
                   requirement. We disagree with this assumption for two
                   reasons. First, the various other documents only contain
                   some of the elements required in a Water Quality
                   Management Plan. Second, these documents are outdated;
                   they were prepared in the 1970's and early 1980's.

Monitoring         The Clean Water Act requires States to establish the
Strategy           appropriate methods, systems, and procedures necessary to
                   monitor and compile data on the quality of its waters. EPA’s
                   National Monitoring Guidance required States to document
                   and submit a five-year Monitoring Strategy. Maryland,



                                     34
                                              Report No. E1HWF7-03-0160-910018
                     Delaware and West Virginia have yet to develop a
                     Monitoring Strategy document, while the other States in
                     Region III need to update their documents.

                     A Monitoring Strategy delineates exactly how a State will
                     collect data to identify impaired water bodies. It is a
                     document that describes, for example, who will take water
                     samples, how often samples will be taken, and what specific
                     criteria the sampler will use, i.e., fecal coliform versus E.
                     coli.

Quality Assurance Title 40 CFR Part 31.45 requires States to develop and
                  implement quality assurance practices. The special
                  conditions of the assistance agreements awarded under
                  Section 106 of the Clean Water Act, specifically requires the
                  States to develop (a) Quality Assurance Management Plans,
                  and (b) Quality Assurance Project Plans.

                     According to EPA, quality assurance practices are critical
                     because the Agency uses environmental data to set priorities,
                     measure progress and compliance, target inspections, and
                     identify needed enforcement actions. And, because the
                     States collect much of the data used by the Agency, it is
                     imperative EPA be assured the data was collected and
                     recorded accurately. Confidence in the integrity of
                     environmental data is weakened when evidence of quality
                     assurance is absent. Therefore, EPA needs to review the
                     specific documents that describe State policies and
                     procedures related to quality assurance.

                                         None of the States except Virginia
                        Management       developed the Quality Assurance
                           Plans         Management Plans. However,
                                         according to regional personnel, EPA did
                                         not provide training on how to prepare
                     these Plans until April 1998.

                                          The Region has been slowly
                         Region’s         implementing quality assurance
                         Progress         requirements. In 1984 the Agency
                                          required each Region to develop and
                                          implement a Regional Quality
                     Assurance Management Plan. In fiscal years 1992 through
                     1995, the Agency reported its


                                       35
                                                Report No. E1HWF7-03-0160-910018
             environmental data quality as a material weakness in its
             Federal Managers’ Financial Integrity Act Report to the
             President. In August 1994 the Agency’s Office of Research
             and Development concluded the quality assurance performed
             by Region III was sporadic at best. In 1996 the Region
             completed its Quality Assurance Management Plan. In
             accordance with this plan, in 1998 the Region trained State
             personnel on how to prepare their Quality Assurance
             Management Plans. The next step is to have regional
             personnel trained on how to review State Quality Assurance
             Project Plans.

                                   From fiscal year 1995 through 1998,
                  Funding          States in Region III received Federal
                                   funds exceeding $35.5 million to fulfill
                                   a wide range of water quality activities
             required under the Clean Water Act, including: (a)
             developing and reviewing standards; (b) monitoring and
             assessing the water; and, (c) preparing the reports and
             documents required under the Act.

Conclusion   Although some progress has been made towards obtaining
             planning documents, the Region needs to do more to meet
             the goals of the Clean Water Act. These documents are
             important because adequate planning is the initial step for
             States to manage their water quality programs in a
             systematic and organized manner. Moreover, without these
             documents, EPA is less assured that the States are using
             Federal grant funds to address the highest priority water
             quality problems, and leaves itself vulnerable to lawsuits by
             environmental groups.

             We believe there were several reasons why these documents
             have not been prepared or updated as required.

             ‚   Regional personnel argued that certain documents were
                 not actually required to be submitted.

             ‚   Regional personnel deemed other documents as suitable
                 substitutes.

             ‚   Responsibility for approving documents shifted to
                 regional personnel who lacked training.



                               36
                                        Report No. E1HWF7-03-0160-910018
Recommendations We recommend the Region III Administrator:

                      5.1 Require States receiving grants under Section 106 of the
                          Clean Water Act to develop and/or update Monitoring
                          Strategies and Water Quality Management Plans.
                          When necessary, withhold funds from States that
                          neglect to do so.

                      5.2 Train Region III personnel so they can fulfill their
                          responsibilities by working with the States to help
                          ensure the quality of environmental data.

Region III Response to Draft Report

Region III agreed with the OIG’s conclusion that the water quality management
planning process and associated documents and processes required by the Clean
Water Act are important. As part of several memoranda of agreements with the
States, the Region has negotiated commitments by the States to update their
Continuing Planning Processes. Region III did not, however, agree with the details
in the table entitled “Summary of State Compliance.”

Water Quality Management Plan

The report lists none of the States have Water Quality Management Plans. Region
III strongly disagreed with this statement. The State’s Water Quality Management
Plan does prioritize water quality problems, consider solutions, and recommends
remedies; however, Region III does not believe that it is embodied in a single
document, but rather an overall process which includes many different components.
In fact, all States have recently completed Unified Watershed Assessments as part
of the Clean Water Action Plan to establish priorities in cooperation with a broad
range of State and Federal agencies.

Quality Assurance Documents/Training

Under Quality Assurance Management Plans, Region III said it should be noted
that prior to FY ‘97, Quality Assurance Management Plans were entitled “Quality
Assurance Program Plans” (QAPPs), which all the states submitted back in the mid
1980's. These QAPPs were approved by the Region III Environmental Services
Division (ESD) at that time. Sometime in the early 1990s, ESD disinvested in this
review and stated that it was the Project Officer’s responsibility to review Quality
Assurance Program/Project Plans (QAPjPs). Project Officers in all EPA programs
were in the same situation and were not provided with any training by ESD to



                                         37
                                                 Report No. E1HWF7-03-0160-910018
carry out this task. Also, it was never brought to anyone’s attention that the
Program Plans expired after a certain amount of time.

All of the States were represented at the Quality Assurance Management Plan
training in April of 1998. Several of the States committed to send in their Quality
Assurance Management Plans to the Regional Quality Assurance Manager in the
ESD Annapolis Office for review by mid-December. Also, the Regional Quality
Assurance Manager is planning to train the EPA Project Officers sometime in the
spring on how to review a Quality Assurance Project Plan. After training of the
Project Officers is complete, the Regional Quality Assurance Manager then plans to
go back to the States and train them on the same review.

Up until FY 1998, according to Region III, most of the states have been sending
Quality Assurance Project Plans to EPA for review. The Water Protection Division
has been working with the Regional Quality Assurance Manager and the Regional
Quality Assurance Council since October, 1997 to complete the above-mentioned
tasks and correct the deficiencies listed in the audit report.

Monitoring Strategy

Region III stated that monitoring strategies were requested as part of the S. 106
grant guidance and not required, although several grants were conditioned to
provide a monitoring strategy. Maryland’s Section 106 grant was conditioned to
provide a monitoring strategy, and Region III is working through the Performance
Partnership Grant Program to induce Maryland to provide a strategy document. A
monitoring strategy was never requested from Delaware due to the fact that the
State had already assessed all of its waters, thereby alleviating the need for a
comprehensive strategy. Virginia has just recently submitted a new draft
monitoring strategy, and Region III is working with West Virginia to update its
Watershed Assessment Program to include a more detailed monitoring strategy.

Maryland Response to Draft Report

The CPP has been adopted in accordance with the requirements of the Clean Water
Act. MDE provided public notice on July 13, 1998 that the CPP is being revised
with public participation. MDE anticipates that such revisions and review of the
CPP will occur periodically in future years.

MDE will perform chemical and physical monitoring in accordance with the Cycling
Strategy. Numerous monitoring plans exist and incorporate QA/QC protocols. Past
305(b) Reports have described the monitoring programs that produced the data
used. MDE stated that there are well documented monitoring plans for the
Chesapeake Bay and many tributaries. Detailed monitoring plans are available for



                                         38
                                                  Report No. E1HWF7-03-0160-910018
the Lower Delmarva Peninsula and the Upper Bay as part of the Watershed
Cycling Strategy. Plans for the remaining parts of the State will be developed as
the Watershed Cycling Strategy moves on to those areas.

DNR has been working to update the State's Water Quality Monitoring Strategy to
incorporate the latest information about the State's diverse monitoring approach.
DNR stated that continuing and substantial change in these programs have
occurred recently and need to be addressed, including the transfer of monitoring
programs between State agencies, the addition of regional TMDL-based and new
Pfiesteria monitoring efforts as well as the proposed National Estuary program
monitoring program. While each water quality monitoring effort has unique goals,
MDE and DNR have had formal meetings to coordinate the respective monitoring
efforts and Quality Assurance plans.

OIG Evaluation

The Region III response regarding training project officers satisfies
Recommendation 5.2.

The Region presents several arguments disputing the contents of the finding.
Where we agreed with these arguments, we modified the finding. However, in most
instances we still believe there were problems regarding planning documents.

Monitoring Strategy

The Region asserted that monitoring strategies were requested as part of the
Section 106 grant guidance, but not required (although several grants were
conditioned to provide a monitoring strategy). We disagree.

Section 106 (e) of the Clean Water Act stipulates that the Administrator shall not
make any grants under this Section to any State which has not provided or is not
carrying out as part of its program the establishment and operation of appropriate
devices, methods, systems, and procedures necessary to monitor, and to compile and
analyze data ....

The Section 106 Monitoring Guidance document (dated October 17, 1994) stipulates
under “Monitoring Strategy” that States should submit a current ambient
monitoring program strategy with the 106 grant application.

Therefore, we recommend that the Region require the States to submit/update their
monitoring strategies.




                                          39
                                                   Report No. E1HWF7-03-0160-910018
Water Quality Management Plan

The Region asserts that this is not a single document, but rather an overall process
which includes many different components. During the audit, regional personnel
advanced the argument that “Basin Plans” fulfilled the Management Plan
requirement. We disagreed because the Basin Plans only contained some of the
Management Plan requirements. For example, according to 40 CFR Part 130.6, the
first required element of a Water Quality Management Plan is “Total Maximum
Daily Loads.” As this element is not contained in Basin Plans, we believe that it
does not fulfill the requirement. Therefore, we recommend that the Region require
that the States develop Water Quality Management Plans.




                                         40
                                                 Report No. E1HWF7-03-0160-910018
             APPENDIX A

Office of Water Response to Draft Report




                   41
                          Report No. E1HWF7-03-0160-910018
[This page was intentionally left blank.]




                   42
                            Report No. E1HWF7-03-0160-910018
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460


                                                                                      OFFICE OF
                                                                                         WATER



                                          March 24, 1999

MEMORANDUM

SUBJECT:       OIG Draft Report on Region 3 Water Quality Standards, Monitoring
               and Reporting (No. EIHWF7-03-0160)

FROM:          J. Charles Fox
               Assistant Administrator (4101)

TO:            Michael D. Simmons
               Deputy Assistant Inspector General for Internal Audits (2421)


     The Office of Water (OW) has reviewed the Office of Inspector Generals (OIG) draft
report on Region 3 Water Quality Standards, Monitoring, and Reporting. This memorandum
responds to the two recommendations in the report directed to the Assistant Administrator for
Water.

      1. Delete the option that allows States to us fecal coliform as criteria for reporting bacteria
      impairments.

      2. Require the use of E. coli and enterococcus tests in accordance with the Agency's 1986
      Ambient Water Criteria for Bacteria.

Background

      The fecal coliform bacteria enumeration test was developed in the 1960s as a repacement
for the total coliform test in sewage and in sewage-polluted ambient water.
It was shown to be more specific to warm-blooded animal fecal waste than total coliform.
It was the indicator selected in the early water quality criteria recommendations produced by the
Environmental Protection Agency (EPA) and its predecessor Agency: the 1968 Water Quality
Criteria and the 1976 Quality Criteria for Water. It is also designated a conventional pollutant
in Section 304(a)(4) of the Clean Water Act. Following the enactment of the 1967 and 1972
Federal water pollution control acts and their requirements for water quality standards adoption
by the States, its use by the States was almost universal.
                                                 2

       EPA seminal studies of enteric disease in recreational swimmers in the 1970s were
the first such studies to use epidemiological techniques to statistically demonstrate which
bacterial indicators provide correlation with gastroenteritis incidence. These studies used new
laboratory methods to measure Escherichia coli, the coliform bacteria always present in warm
blooded animal feces, and enterococci, a small subgroup of 4 species which, while within the
much larger fecal steptococci group are virtually always found in warm blooded animal feces.
Statistically significant correlations were determined and criteria developed that were based on
swimmer illness rates as a function of indicator bacterial densities in ambient waters -- that is, on
a risk basis. Moreover, it was found that fecal coliform, while a valid indicator of the presence
of fecal material, did not correlate with swimmer illness rates. The 1986 criteria document used
this research to present criteria that were roughly equivalent in stringency to the previously
recommended fecal coliform criteria.

      EPA encouraged the States to change to the new indicators to take advantage of their
improved ability to base decisions on swimmer illness risks. For example, beginning with the
Federal Regulation Notice announcing the availability of the criteria document that encouraged
quick State adoption (51 FR 8012, March 7, 1986), to a more recent letter (January 13, 1997)
from the Assistant Administrator for Water urging States to adopt the new indicators (copy
attached). While a number of States have done so, more than two-thirds have not. The States
tha have not adopted the new criteria have cited a number of perceived problems. Among these
are the following: the drinking water program still uses total coliform and fecal coliform (E.
coli is now an option, however), making additional demands on laboratories; the enumeration
methods for E. coli and enterococci are not in the Agency's methods at          40 CFR Part 136
and thus may pose problems if used in NPDES permits; and they have long records using Fecal
coliform and do not wish to change indicators.

Legal Standard

      The water quality standards regulation addresses required criteria in State water quality
standards in 40 CFR 131.11. This regulation provides that States should establish numerical
values based an EPAs §304(a) criteria guidance, §304(a) criteria guidance modified to reflect
site-specific conditions or other scientifically defensible methods.

EPA’s Current Plans

      OW agrees with the concerns expressed in the OIG’s draft report. EPA recognizes that it
is important for States to adopt microbiological water quality criteria that adequately protect
designated uses. For these reasons, the President included specific provisions concerning beach
protection in the Clean Water Action Plan that he issued in February 1998. In response to the
Action Plan, EPA recently completed an Action Plan for Beaches and Recreational Waters that
includes a renewed commitment to encouraging State adoption of updated criteria to
                                                 3.

protect beaches. We will provide you a copy of this Action Plan as soon as copies have been
printed. In the Action Plan, EPA commits to several steps in the near future regarding water
quality criteria. These steps include conducting a literature review and analysis to verify the
continuing scientific soundness of the 1986 criteria; notifying the States of EPA's intention to
make a finding that use of fecal coliform criteria alone will not support the primary contact
designated use (presuming that position is justified by the review), and initiate a Federal
promulgation to impose the 1986 E. coli and/or enterococci criteria in addition to or in place of
outdated fecal coliform criteria where necessary. EPA is also committed to promulgating the
enumeration methods for E- coli and enterococci into 40 CFR Part 136 prior to any Federal
promulgation for a State.

Other Issues

       On page 8, second paragraph, the draft report discusses State reporting of bacteriological
measures. Specifically, this paragraph states that "the Agency acquiesced to allow some States to
use less stringent criteria [fecal coliform measures] to assess the quality of their water bodies.” I
am concerned that the paragraph may be misleading. First, it asserts that fecal coliform measures
are "less protective” than EPA's 1986 criteria for enterococci and E. coli. Although EPA
recommends the use of the 1986 criteria, rather than the older fecal coliform criteria, it is not
always true that the 1986 criteria provide a higher level of protection. For a more complete
description of this issue, see the 1986 criteria document [Ambient Water Quality Criteria for
Bacteria - 1986, EPA 440-5-84-002, January, 1986 at page 8]. Second, the draft report implies
that the Agency in some way lowered its reporting requirements. This is not the case. EPA's
reporting guidance is that States should determine whether the designated uses and water quality
criteria in their adopted water quality standards are being attained. More specifically, our
reporting guidance to States, issued as Guidelines for Preparation of the 1996 State Water
Quality Assessments (305(b) Reports), EPA 841-B-95-001, May 1995, and reiterated in
Guidelines for Preparation of the Comprehensive State Water Quality Assessments (305(b)
Reports) and Electronic Updates, EPA-841-B-97-002A and -002D, September 1997, provides
that "States should base use support determinations on their own State criteria for bacteriological
indicators." EPA 1997, page 3-34. The Guidelines go on to say that "EPA encourages States to
adopt [the 1986 criteria]." Therefore, until a State has adopted the 1986 criteria, EPA cannot
mandate the 1986 measures in State reporting, although we would prefer such reporting. We
would be happy to work with your staff in revising the paragraph in the draft report.

Summary

      I believe that EPA's planned actions described above will achieve the OIG’s
recommendations on a reasonable time schedule. At the completion of the Clean Water Action
Plan's and the Beach Action Plan's measures for beach protection, all of the States will have the
recommended bacterial indicators in place. At that point all of the States will be capable of using
E. coli or enterococci for purposes of section 305(b) reporting, and the draft OIG report's
concern about State reporting of bacterial impairments will be moot.
                                                 4

     If you have any further questions or if you need additional infonnation, please call me or
bave your staff contact Dr. Elizabeth Southerland, Acting Director, Standards and Applied
Science Division, at 202-260-3966.

Attachments
                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  WASHINGTON, D.C. 20460



                                                                                    OFFICE OF
                                                                                       WATER



                                           Jan 13, 1997

Honorable Michelle Brown
Commissioner
Environmental Conservation Department
P.O. Box O
Juneau, Alaska 99811

Dear Ms. Brown:

      I am writing to share with you the U.S. Environmental Protection Agency's (EPA) concern
with public health risks posed by contaminated bathing beaches and to ask for your participation
and support in reducing these risks. Scientific evidence documenting the risk of infectious
diseases caused by microbial organisms in recreational waters continues to grow -- for example, a
recent epidemiological study in Santa Monica Bay, California, documented an increased risk of
illness associated with swimming near storm drains. The Santa Monica study is only one of many.
Additionally, the number of beach closures reported every year is on the rise. To counteract this
growing problem and to ensure public notification when they may be at risk of illness and disease,
the EPA is in the process of establishing a national program to protect public health at our nation's
beaches (see Enclosure 1). I welcome and strongly encourage your participation in this effort.

      The national beach program is directed towards reducing the health risks associated with
recreational waters through better science and improving coordination among the various Federal,
State, Tribal and local agencies responsible for reducing contamination and notifying the public of
health threats. A cornerstone of the program is State and Tribal adoption of EPA's 1986 updated
bacteriological ambient water quality criteria (see Federal Register Notice, Enclosure II). I
strongly encourage all States and Tribes, that have hot done so, to adopt these criteria as soon as
possible.

     The national beach program will support State, Tribal and local efforts by providing better
technical assistance and improving coordination among appropriate agencies and the public. The
program will focus on four specific areas:

 T     improving the scientific and policy foundations in support of local, State and Tribal
       actions;
 T     providing improved test methods and indicators to better protect the health of beach goers
       in a more timely and comprehensive manner;

 T     developing better predictive models to help notify the public of potential risks; and

 T     enhancing the public's right-to-know about the safety of their local beaches by establishing
       and disseminating a national beach contamination data base.

        Although many of the activities will be in the making for several years, there are actions
that can and should be taken immediately. We will also be inviting your agency to participate in a
national conference on this subject and to contribute information to a national beach/health data
base. Your agency will be notified about these as soon as they are scheduled.

        ln addition to the areas outlined in Enclosure 1, EPA will continue its current work with
the States to control the sources of microbial pathogens. These activities include controlling
urban wet weather flows such as sanitary sewer overflows, combined sewer overflows and urban
storm water runoff. Currently, several Federal Advisory Committees are working with EPA to
develop detailed control strategies for these sources.

         As the Agency implements the national beach program outlined above, we will ask for
your continued involvement and provide you with more detailed information. If you have any
initial questions or comments, please feel free to contact me or have your staff call
Dr. Tudor Davies, Director, Office of Science and Technology, at (202) 260-5400 or
Mr. Rick Hoffmann, Beach Health Protection Team Leader, at (202) 260-0642.

                                                     Sincerely,



                                                     Robert Perciasepe
                                                     Assistant Administrator

Enclosures (2)
                                         ENCLOSURE I

                                    National Beach Program

1.     Improved Scientific and Policy Foundation for Local State and Tribal Actions

         Water Quality Criteria & Standards, To improve the scientific and policy foundation for
State and local actions, the U.S. Environmental Protection Agency (EPA) is encouraging all
States and Tribes to adopt updated bacteriological ambient water quality standards protective of
public health. In 1986, EPA issued a revision to its bacteriological ambient water quality criteria
recommendations (51 FR 8012, March 7,1986) to protect body contact recreation. The revised
criteria introduced new indicator bacteria, E coli and enterococci, which provide a better
correlation with swimming-associated gastrointestinal illness than the previous criteria
recommendations for fecal coliform bacteria. The revised criteria are particularly useful to public
health administrators because they enable quantitative estimates of illness rates associated with
swimming in polluted water. Since EPA published the 1996 criteria recommendations, several
States and Indian Tribes have adopted the revised criteria into State or Tribal water quality
standards.

        The 1986 criteria were derived from a series of epidemiological studies which established
a dose-response relationship between swimming-associated illness and water quality. Moving to
these criteria, therefore, will ensure that States and Tribes adopt standards that are more risk-
based. Although there continues to be a residual risk associated with swimming and other body
contact activities, EPA believes that the 1986 criteria provide for an increased level of protection
and that the methodology allows States and Tribes to set even more stringent levels of protection,
if appropriate.

         As part of EPA's national program, EPA strongly encourages all States and Tribes that
have not done so to adopt EPA's 1986 criteria to facilitate defensible risk management decisions
for protection of human health in recreational waters. We offer the support of staff in EPA's
Regional and Headquarter's Offices to assist your organization in adopting the 1986 criteria at
the next available opportunity. If your jurisdiction has already adopted the revised standards, EPA
offers its technical assistance to help implement these standards. For example, EPA could help
agencies respond to circumstances where site-specific factors influence these criteria.

        Policy Dialogue -- National Conference. EPA also intends to establish a policy dialogue
with local, State and Tribal agencies to discuss the fall range of issues related to microbiological
contamination of recreational waters. To facilitate these discussions, EPA will convene a national
beach and public health protection conference for representative officials. The
conference will review current beach health activities, discuss possible changes and identify
specific actions to protect public health at bathing beaches and recreational waters. EPA would
then update its beach health program using conference recommendation. When the initial
planning is complete, we will notify appropriate agencies and interested parties of the date and
location.

2.     Provide Improved Test Methods and Indicators to Better protect the
       Health of Beach Goers

        EPA recognizes that there is a need to provide improved test methods and monitoring
guidance to responsible agencies. EPA will Provide technical assistance to State and private
laboratories to implement recently developed methods for enterococcus testing. This new
methodology will provide results within twenty four hours, half the time required by the old
method. EPA will continue to conduct additional research to improve methods for detection and
quantification of bacterial contamination. EPA will also conduct research to develop a new
generation of indicators for water-borne pathogens.

3.     Develop Better Predictive Models to Help Notify the Public of Potential Risks

        EPA will work with local, State and Tribal governments and other Federal agencies to
develop models that can be used to predict when bathing beach contamination events may occur.
These models will assist public health officials in determining when beach warnings may be
needed. EPA will initiate a multi-year effort, working with States and the National Oceanic and
Atmospheric Administration, to develop, verify, and apply these models at several selected
locations in both coastal and inland waters.

4.     Enhancing the Public's Right-to-know about the Safety of Their Local Beaches by
       Establishing and Disseminating a National Beach Contamination Data Base

         EPA believes there is a need to improve the overall quality and availability of public
information about beach health protection activities; these include: monitoring and assessment
activities, water quality standards, beach closures, etc. Many organizations share responsibility
for these activities. Consequently, EPA will work with environmental health officials from
Tribal, State, county, and city agencies, as well as from various interest groups to
compile and verify this information. EPA will then input the information into a comprehensive
data base and make it available on the Internet.
Region III Response to Draft Report




                51
                       Report No. E1HWF7-03-0160-910018
[This page was intentionally left blank.]




                   52
                            Report No. E1HWF7-03-0160-910018
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION III
                                       1650 Arch Street
                            Philadelphia, Pennsylvania 19103-2029



SUBJECT:     Draft Report of Audit on Region III Water Quality                 February 19, 1999
             Standards, Monitoring and Reporting
             Audit Report Number E1HWF7-03-0160

FROM:        W. Michael McCabe
             Regional Administrator (3RA00)

TO:          Michael D. Simmons
             Assistant Inspector General for Internal Audits (2421)


  In response to the draft audit report and recommendations, we offer the following comments.
Both of the responsible Region III offices submitted comments which are summarized below and
detailed in the attachments. We have also attached a set of complete responses as submitted by
each of the affected EPA offices.

  The Environmental Services Division (ESD) generally agreed with the draft report, but noted
that some clarification is needed. Recommendation 2.1 proposed deleting the option that allows
states to use fecal coliform as a criterion for reporting bacteriological impairments.
ESD believes that the states should be able to use fecal coliform until a new indicator is adopted.

  The Water Protection Division (WPD) generally agreed with the report findings that the states
have been lax in completing timely triennial reviews and remedying EPA disapprovals; and that
EPA’s efforts in the past have not been successful in forcing states to move forward. The Region
also agrees that the “elevation process” to request that the Administrator move to promulgate
Federal standards where the states’ standards are deficient has not been widely used in Region III
or, as a matter of fact, in the rest of the nation. Previous efforts to improve state standards have
relied on an approach which anticipated continuous improvement in state standards, while
maintaining the state’s prerogative to adopt its own regulations. Recent litigation, starting with a
lawsuit in Pennsylvania which ordered the Administrator to promulgate Federal water quality
standards for Pennsylvania, was a major step in changing EPA’s role in the state’s water quality
programs. Region III is currently aggressively attempting to remedy outstanding water quality
standards disapprovals and this has become, in fact a national priority.

 -Bacteria In Water Not Properly Assessed or Reported

  We concur that there are inconsistencies in the form of bacteria criteria adopted by Region III
states and that EPA has not taken formal action to disapprove states’ standards when Enteroccus
and E. Coli were not adopted to replace fecal coliform criteria. We are expecting




                             Customer Service Hotline: 1-800-438-2474
                                                 -2-

Headquarters to address the question of EPA’s position and guidance regarding bacteria.

  For Maryland, in particular, we disagree with Recommendation 2.1, “Delete the option that
allows states to use fecal coliform as a criteria for reporting bacteria impairments.” If a state has a
fecal coliform standard already in place, it would be inappropriate to base impairment decisions on
a different, unadopted criterion.

  The draft report recommended rescinding the approval of the Impaired List (waters exceeding
fecal coliform standards). We do not concur with this recommendation. On April 17, 1998,
Region III commented on MDE’s draft list of impaired waters. On September 4, 1998, MDE
clarified its interpretation of the fecal coliform standard, which we determined to be reasonable.

 -Deficient Standards Were Not Corrected

  EPA Region III agrees that the Region III states have not been timely in completing triennial
reviews and, as a result, deficiencies now exist in standards that were previously approved. Also,
EPA agrees that there are state standards which were disapproved for which EPA Region III has
not pursued Federal promulgation by the Administrator. EPA Region III is aggressively pushing
the states to move to correct outstanding disapprovals and to initiate triennial reviews. Triennial
reviews have been completed in Virginia and West Virginia, with the approval/disapproval
determinations pending.

  The report notes that EPA Region III did not issue “Notices of Deficiency” to the states or
elevate these issues to the EPA Administrator, who would then have the authority to pursue
Federal promulgation, although not the obligation. EPA Region III agrees with the importance of
notifying the states when changes are needed and also to selective use of Federal promulgation
where other efforts have failed. The report, however, implies that “Notices of Deficiency” are a
formal tool available to the Region. In fact, EPA Region III sends letters to the states which
identify areas to be modified or considered during the triennial review, which are more aptly
called simply, notices of deficiency. If a state has not submitted revisions to the Regional
Administrator for approval/disapproval, the only formal recourse to initiate change is for the
Administrator to take steps to initiate a Federal promulgation in accordance with Section
303(c)(4)(b) of the Clean Water Act (CWA).

  The draft report recommended that the Region coordinate with EPA Headquarters to
promulgate standards if states do not correct deficiencies with 90 days as allowed by the CWA.
This is technically incorrect. The CWA only requires that “disapprovals” be corrected with 90
days. There is no regulatory time limit for correction of deficiencies although the Region works
to get the states to address them during the next triennial review.
                                               -3-

 -Missed Opportunities to Correct Standards

  The draft report recommends that the Administrator be requested to initiate triennial reviews in
Maryland, Delaware, the District of Columbia, Pennsylvania and Virginia. We believe it is more
appropriate to initiate a 303(c)(4)(B) action which allows other options such as recommending
that the Administrator make a finding of deficiency and promulgate appropriate standards. The
draft report recommended withholding Section 106 funding from any state whose triennial review
is overdue. We are considering this and have done so in the past.

 If you have any questions concerning this response, please contact Robert G. Reed at (215)
814-5270.

Attachment

cc:    Thomas Maslany (3WP00)
       Stanley Laskowski (3ES00)
       Carl Jannetti (3AI00)
       Jonathan Fox (4101)
Recommendations

       As noted in the draft report, the Assistant Administrator for Water is addressing the first
       two recommendations in Chapter 2.

Recommendation 2.3

       Send a Deficiency Notice to Maryland based on how the state implements their
       standards. The Department of Natural Resources (DNR) should either not require a
       sanitary survey to confirm contamination or perform the surveys whenever testing reveals
       elevated bacteria levels.

Response - On February 4, 1998, the Regional Administrator wrote to the Maryland Department
      of Environment (MDE) requesting development of a schedule for completing a triennial
      review of water quality standards. On March 2, 1998, the Region wrote to MDE to
      provide detailed guidance on 24 items for the triennial review and to ask MDE to
      “provide data that shows all use I waters are meeting the criteria in accordance with 40
      CFR 131.11(a).”

       On March 30, 1998, MDE wrote to the Regional Administrator providing a schedule for
       the triennial review including final adoption of water quality standards by August 1999.

Recommendation 2.4

       Rescind the approval of the Impaired List or assure that the additional monitoring
       promised by Maryland is promptly carried out.

Response - On April 17, 1998, the Region commented on Maryland’s draft list of impaired
      waters pursuant to Section 303(d) of the Clean Water Act (CWA). Our comments
      requested an explanation as to why certain waters which exceeded the numeric criteria for
      fecal coliform were not on the Impaired List. In a September 4, 1998 letter, MDE
      clarified its interpretation of its fecal coliform standard to support the decision that their
      data was insufficient to determine that the water violated the fecal coliform standard.

       We determined that MDE’s interpretation was reasonable, particularly in light of the
       state’s commitment, by letter dated August 12, 1998, to allocate additional resources to
       monitoring where data was insufficient to make a testing determination. We agree that
       follow-up is necessary to ensure that the state follows through with this commitment. We
       do not concur with Recommendation 2.4 that EPA should rescind its approval of
       Maryland’s Section 303(d) list (Impaired List).

Recommendation 3.1

       Send Notices of Deficiency to each state in the Region clearly identifying the inadequate
       standards.

Response - We recommend that “Notices of Deficiency” be changed to lower case.
                                                -2-

Recommendation 3.2

       Coordinate with EPA Headquarters to promulgate standards if the states do not correct
       the deficiencies within the 90 days allowed by the CWA.

Response - This is technically incorrect. The CWA only requires that disapprovals be corrected
      within 90 days. There is no time limit for correction of identified deficiencies that are not
      disapprovals. We will try to get the states to address these deficiencies during the next
      triennial review.

Recommendation 4.1

       Request the Administrator to initiate triennial reviews in Maryland, Delaware, the District
       of Columbia, Pennsylvania, and Virginia.

Response - We believe it would be more appropriate to state that the Administrator initiate a 303
      (c)(4)(B) action. By specifying initiation of a triennial review, we neglect other options
      such as simply recommending that the Administrator make a finding of deficiency and
      promulgate appropriate standards.

Recommendation 4.2

       Withhold a portion of Section 106 funding from any state whose triennial review is
       overdue.

Response - We have certain discretionary authority to award grants that condition grant funding
      upon the completion of certain activities and are considering doing so, and have done so in
      the past.

Recommendation 5.1

       Prioritize water quality planning documents and emphasize their importance to Region
       personnel.

Response - No comment

Recommendation 5.2

       Require states receiving grants under Section 106 of the CWA to develop and/or update
       required planning documents. When necessary, withhold funds from states that neglect to
       do so.

Response - We have discretionary authority to award grants that condition funding upon
      completion of certain activities and are considering doing so, and have done so in the past.
                                               -3-

Recommendation 5.3

      Have Region III personnel trained in their responsibilities for ensuring the quality of
      environmental data.

Response - No comment

General Comments

      In addition to those comments directly responding to each recommendation, we have
      comments on the other portions of the draft report.

      Generally, we agree with the OIG’s recommendation and observation that the states have
      been lax in completing timely triennial reviews and remedying EPA disapprovals of state
      Water Quality Standards (WQS) submittal. Region III’s efforts to move the states
      forward have not been successful. Region III has not used the escalation process to have
      the Administrator move to promulgate Federal standards or find those state standards
      deficient in accordance with Section 303(c)(4) of the CWA. The Administrator’s
      promulgation of WQS for Pennsylvania was a major step in changing EPA’s role in the
      states’ WQS programs. We are aggressively attempting to remedy the outstanding WQS
      disapprovals and, in fact, this effort is a national priority.

      -The Antidegradation Policy does not target improvements but is aimed at protecting
      existing water quality, including waters that do not meet standards as well as high quality
      and pristine waters.

      -Tools available to the Region to compel a full triennial review, a revision of a
      Continuing Planning Processes (CPP) or a revision to approved standards are very limited.
      The capitalization of Notice of Deficiency appears to label it as a formal tool available to
      EPA. EPA has notified states regarding WQS which would be considered inadequate if
      submitted for approval. We expect states to address these deficiencies in the next triennial
      review. The Administrator decides if these deficiencies are worthy of Federal
      promulgation.

      -There seems to be a misinterpretation on page 10 of the report. Delaware is reported as
      having 651 assessed miles with 84 miles impaired by bacteria. The 1996 S.305b report
      from Delaware actually shows 801 miles assessed with 548 miles or 68 percent impaired
      by bacteria. The reference in the report is “impairment of aquatic life support and
      primary recreation.”

      -We believe the section beginning on page 18, Deficiencies in Other States Within Region
      III is inaccurate for Delaware and West Virginia. EPA disapproved portions of
      Delaware’s WQS in April 1998 and have agreed to promulgate Federal standards for
      those disapproved.

      Although “42" problems were cited for West Virginia the number, itself, is not as
      significant as the importance of the individual provisions. There are significant
      differences in their importance.
                                         -4-

-Page 20, Region III Position does not reflect one very important position, resource
constraints. Resources are lacking both at Headquarters and Region III to undertake a
promulgation when a state does not make the required changes. Federal promulgation is
usually reserved for precedent-setting situations which require a complex analysis in order
to be consistent with all other states.

-The Chapter 5 discussion of planning documents not being prepared or updated should
take note of the fact that monitoring strategies were requested as part of the S.106 grant
guidance and were not required (as specified on page 27), although several grants were
conditioned to provide a monitoring strategy. Maryland’s S.106 grant was conditioned to
provide a monitoring strategy. It was never requested of Delaware because they had
already assessed all of their waters, thereby alleviating the need. Virginia has just recently
submitted a new draft monitoring strategy and we are currently working with West
Virginia to include a more detailed monitoring strategy.

-The Summary of State Compliance Table in Chapter 5 also shows the status of
submitted Quality Assurance Project Plans (QAPP). Contrary to the table, QAPP’s were
submitted by Delaware in 1991 and Virginia in 1992. The table should be revised, as well
as the first sentence on page 28.

-It is inaccurate to state that the Region has been unwilling to enforce the states’
responsibilities under the CWA and Federal regulations because it considered Quality
Assurance Management Plans to be a low priority. Until FY 1998 most of the states have
been sending QAPP’s to EPA for review. The Water Protection Division has been
working with the Regional Quality Assurance Manager to correct the deficiencies listed in
the report.

-We agree that the water quality management planning process and associated documents
required by the CWA are important. We disagree with the details in the Summary of State
Compliance Table on page 25. The report shows that none of the states have Water
Quality Management Plans. We strongly disagree. We do not believe that a state’s
“Water Quality Management Plan” is embodied in a single document but, rather an overall
process which includes many different components. All states have recently completed
Unified Watershed Assessments as part of the Clean Water Action Plan to establish
priorities in cooperation with a broad range of state and Federal agencies.
                                                -5-

                                    GLOSSARY COMMENTS

Anti-degradation      -       The definition should be clarified to read that not just
Policy                        improvements to water quality are protected, but the
                              existing quality.

Designated Use        -       We suggest the following change, “The use of a water body
                              designated by state regulations that include, at a minimum,
                              drinking water protection of aquatic life and recreation
                              (i.e., swimming, boating or white water rafting).” The minimum
                              uses as defined by the CWA, Section 101 are limited to fishable
                              and swimmable uses. The drinking water use is required where the
                              use actually occurs or can, at the discretion of state, be applied
                              statewide.

Notice of Deficiency -        We agree with the intent but not the way it is portrayed throughout
                              the report. The capitalization implies that it is a formal process
                              under a statute or regulation. Failure to issue such letters should
                              not imply a violation of statute or regulation.

Toxic Pollutants      -       The second sentence should be modified, as follows:
                              “States are required to adopt specific numeric criteria for these
                              pollutants that are at least as stringent as EPA criteria
                              recommendations or provide a scientifically defensible rationale
                              for a less stringent criteria.”


                      Additional Specific Comments

Chapter 1, Page 2, 3rd full paragraph - We count 102 toxic pollutants with EPA criteria
                                        recommendations. We suggest that it should be
                                        38 other pollutants. We recommend that limits
                                        be changed to “criteria” and stringent be changed
                                        to “protective.”

Chapter 3, Page 16, 1st paragraph    - We are concerned that the wording concerning criteria
                                       could be confusing. We suggest the following
                                       modification: “Section 303(c)(2)(B) of the Clean Water
                                       Act requires the states to adopt criteria for all toxic
                                       pollutants pursuant to Section 307(a)(1) of the Clean
                                       Water Act for which EPA has published criteria under
                                       Section 304(a ), the discharge or presence of which in the
                                       affected waters could reasonably be expected to interfere
                                       with those designated uses adopted by the state.”
                                           -6-

Page 17                      -   “Incorrect Criteria for Toxic Pollutants”
                                 Because of EPA revisions in 1996 some of EPA’s
                                 recommended metals criteria are now less stringent
                                 than Maryland’s criteria. We recommend that the
                                 following revision be made. “The net effect is that the
                                 numeric levels set by Maryland may be less stringent
                                 than the levels currently recommended by EPA.
                                 Consequently, the state’s standards may allow more
                                 pollution...”

Page 18, Delaware        -       We recommend this section be rewritten, as follows: “In
                                 1993, EPA identified a number of deficiencies with
                                 Delaware’s water quality standards program. After five
                                 years of discussion between the state and the Region, many
                                 of the deficiencies still remain unresolved. In April 1998,
                                 the Region finally sent a letter to the state disapproving four
                                 provisions of the standard and identifying a number of
                                 provisions that the Region intends to recommend that the
                                 EPA Administrator find deficient and promulgate replacement
                                 standards should the state not make the recommended
                                 corrections.”

Page 19, West Virginia   -       We believe this misrepresents our letters to the state,
                                 especially the use of definitive numbers of “problems.”
                                 In response to the West Virginia WQS Triennial Review
                                 submitted October 12, 1993, EPA identified four sections of
                                 the West Virginia standards which were being disapproved
                                 due to inconsistencies with Federal regulations. In addition,
                                 four sections were conditionally approved and four
                                 recommendations were made to allow the state to further
                                 clarify the intentions of these sections. Recommendations
                                 made to the state are in no way considered deficiencies but
                                 are comments meant to assist the state in providing further
                                 clarification and consistency.

                                 Based on the next Triennial Review package on August 11,
                                 1995, EPA was able to fully remove two of four disapproved
                                 sections from 1993. Of the remaining two issues, we were
                                 able to partially remove the disapprovals.

                                 We are currently reviewing the state’s 1998 Triennial Review
                                 and it is premature to indicate what provisions will be found
                                 deficient.
                                              -7-

Page 20, Region III Position   -   There is one position we believe was proffered during
                                   interviews that is not reflected in this section. We suggest the
                                   following be added: “The regions and Headquarters lack the
                                   resources, both in terms of personnel and funding, necessary
                                   to undertake a promulgation when the state does not make
                                   the required changes.”

Chapter 4, Page 21,            -   Two changes needed to the chart. West Virginia
Triennial Reviews Chart            submitted a review package in July 1998 and Virginia
                                   submitted a package in August 1998.

Page 23, District of Columbia -    The District has informed EPA that the final triennial review
                                   package will not be submitted until at least fall ’99.

Page 23, Pennsylvania          -   It would be more correct to say that Pennsylvania personnel
                                   were occupied with the Regulatory Basics Initiative, including
                                   modification to the water quality standards regulations which
                                   are intended to constitute a triennial review.

Chapter 5, Page 25,         -      On July 13, 1998, Maryland provided public notice of its
Summary of State Compliance        intent to revise its CPP and invited public comment. MDE
Table                              agreed to update its CPP and transmit it to EPA on or before
                                   October 1, 1999.

Page 27, Quality Assurance     -   Under “Management Plans” it should be noted that prior to
                                   FY ‘97 Quality Assurance Management Plans were entitled,
                                   “Quality Assurance Program Plans,” which were
                                   approved by the Environmental Services Division (ESD). In
                                   the early 1990's ESD disinvested in this review and it became
                                   the project officer’s responsibility to review Quality
                                   Assurance Program/Project Plans. Project officers in all EPA
                                   programs were assigned responsibility, but ESD did not
                                   provide any training.

                                   All of the states were represented at the Quality Assurance
                                   Management Plan training in April 1998. Several have
                                   committed to submit their plans for review to the ESD
                                   Annapolis Office by mid-December. Plans have been made
                                   to train EPA project officers in the states on the same review.
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION III
                                       1650 Arch Street
                            Philadelphia, Pennsylvania 19103-2029



SUBJECT:     Draft Report of Audit on Region III Water Quality              December 17, 1998
             Standards, Monitoring and Reporting -
             November 25, 1998

FROM:        Thomas J. Maslany, Director
             Water Protection Division (3WP00)

TO:          Thomas J. Gallagher (3PM70)




  The Water Protection Division has reviewed the subject draft report. We spent significant time
with the staff from the Office of the Inspector General (OIG) on this audit and appreciate the
effort spent learning the complex and challenging details of the water quality standards (WQS)
program. We have a number of corrections and clarifications to the language in the report, which
are included as an attachment to this memo. The comments in the attachment are arranged in the
order that they appear in the report and do not reflect order of importance. We will highlight
below our more significant comments.

  Generally, we agree with the OIG’s observation that the States have been lax in completing
timely triennial reviews and remedying EPA disapprovals of State WQS submittals, and Region
III’s efforts to date have not been successful in moving the States forward. Likewise, EPA
Region III has not used the escalation process to have the Administrator of EPA move to
promulgate Federal standards or find those State standards deficient in accordance with Section
303(c)(4) of the Clean Water Act. The EPA Regional Administrator’s authority is limited to
approving or disapproving those water quality States which are new or revised and submitted to
EPA by the State for review after formal adoption as State law. The role and importance of
Federal promulgations have increased significantly over the past five years. The Administrator’s
promulgation of WQS for Pennsylvania was a major step in changing the nature of EPA’s role in
the States’ water quality standards programs. We are aggressively attempting to remedy the
outstanding WQS disapprovals and, in fact, this effort is a national priority.

        The Antidegradation Policy is represented as a policy that protects water quality
        improvements. This is incorrect. The Antidegradation Policy is a three-tiered policy that
        is targeted at protected existing water quality from being lowered, including waters that
        do not meet standards as well as high quality and pristine waters.




                            Customer Service Hotline: 1-800-438-2474
                                          2

The processes available to the Region to force the States to complete a full triennial
review, submit a revised Continuing Planning Process (CPP), or revise standards that have
been previously approved is very limited. The OIG uses the term “Notice of Deficiency”
throughout this report. The capitalization appears to represent that the Notice of
Deficiency is a formal tool available to EPA Region III through regulation or statute. As a
matter of practice, EPA Region III has notified states of those areas of a State’s WQS
regulations which have been approved or overlooked by EPA in the past but which would
not be considered adequate if the regulations were submitted to EPA Region III for
approval today. At a minimum, we would expect the States to address these deficiencies
in the next triennial review. The decision on whether these deficiencies are worthy of
formal action through Federal promulgation rests with the Administrator.

We believe that the section beginning on page 18 entitled “Deficiencies in Other States
Within Region III,” is inaccurate, specifically for Delaware and West Virginia. EPA
disapproved portions of Delaware’s WQS in April 1998 and we have reached agreement
with Delaware to move ahead on a cooperative to promulgate Federal standards to replace
those which were disapproved. It should be noted for West Virginia that the reference to
“42 problems” implies that there is some relative weight assigned to the number of specific
provisions which are considered unacceptable. In fact, there are significant differences in
importance of the individual provisions. Also, the large number of items disapproved also
reflects that, several years ago, EPA Region III would have acted to disapprove State
WQS provisions which had been previously approved by EPA and not revised. This
limitation on Regional authority has recently been clarified at the national level.

In Chapter 3 under “Region III Position,” we believe that there was one very important
position, resource constraints, that was presented during interviews that is not reflected in
this section. The Regions and Headquarters lack the resources, both in terms of personnel
and funding, necessary to undertake a promulgation whenever the State does not make the
required changes. Federal promulgation for an individual State by the Administrator also
requires a complex analysis for consistency with all other States, since the Administrator’s
promulgation is usually precedent-setting at a national level. Federal promulgation is
usually reserved for very serious situations where the national interpretation is clear,
independent of the context within individual State standards.

Regarding Maryland’s bacteria criteria and its implementation, we agree that there are
concerns, but do not concur with Recommendation 2.4 that EPA should rescind its
approval of Maryland’s Section 303(d) list (referred to as the Impaired List).

Recommendation 3.2 is technically incorrect. The Clean Water Act only requires that
disapprovals be corrected within 90 days. There is no time limit for corrections of
                                                 3


 identified deficiencies that are not disapprovals, although we try to get the States to address
 these deficiencies during the next triennial review.

       Regarding Recommendation 4.1, we believe it would be more appropriate to state that the
       Administrator initiate an action under Section 303(c)(4)(B) of the Clean Water Act. By
       specifying initiation of a triennial review, we neglect other options such as recommending
       that the Administrator make a finding of deficiency and promulgate appropriate standards.

       Regarding the adoption and implementation of bacteria criteria, we agree that there are
       inconsistencies among the States, but expect EPA Headquarters to address the findings
       and recommendations in the Report regarding bacteria.

       It is inaccurate to state that the Region has been unwilling to enforce the States’
       responsibilities under the Clean Water Act and Federal Regulations because it considered
       Quality Assurance Management Plans to be a low priority. Until FY ‘98, most of the
       States have been sending Quality Assurance Project Plans to EPA for review. The Water
       Protection Division has been working with the Regional Quality Assurance Manager to
       correct the deficiencies listed in the audit report.

       We agree with the OIG’s conclusion that the water quality management planning process
       and associated documents and processes required by the Clean Water Act are important.
       We have, as part of several memoranda of agreements with the States, negotiated
       commitments by the States to update their Continuing Planning Processes. We do not,
       however, agree with the details in the table entitled “Summary of State Compliance” on
       page 25 of the report. Our comments are described in the attachment to this
       memorandum.

       Regarding recommendations 4.2 and 5.2, we agree that we have certain discretionary
       authority to award grants that condition grant funding upon the completion of certain
       activities and are considering doing so, and have done so in the past.

  Our comments do not address Recommendations 2.1 and 2.2 of the draft report. Since these
recommendations are being made to the Assistant Administrator for the Office of Water, we rely
on that office to provide any response to these recommendations, or the data the OIG used to
make its conclusions.

  We look forward to concurring on the final response to the OIG on the draft audit. We suggest
that once the OIG has the opportunity to review the response that we schedule a meeting with
their office so that we may discuss our comments. We did note that similar audits are being
conducted in Regional offices around the country, and we would appreciate being kept apprised
of the findings that the OIG is making nationally. If you have any questions regarding the
Division’s comments, please contact Evelyn S. MacKnight of my staff at extension 5717.
Attachment

cc:   Stanley L. Laskowski (3ES00)
      Christopher Day (3RC20)
      Stefania Shamet (3RC13)
      Tudor Davies (EPA-HQ OST)
      Elizabeth Southerland (EPA-HQ OST)
                              Water Protection Division
    Comments on the Office of Inspector General Draft Report of Audit on Region III
               Water Quality Standards, Monitoring, and Reporting


Glossary

      Antidegradation Policy: This definition implied that this policy ensures that water quality
      improvements are protected. This is incorrect, it is not just the improvements to water
      quality that are protected, but the existing quality. It may be necessary to clarify that
      “existing uses” means those uses actually attained in the water body on or after November
      28, 1975.

      Designated Use: We suggest the following language be substituted in order to clarify this
      definition: “The use for a water body designated by State regulation that include, at a
      minimum, protection of aquatic life and recreation (i.e., swimming, boating or white water
      rafting), and may include such uses as drinking water protection.” The minimum uses to
      be protected as defined by the Clean Water Act Section 101 are limited to “fishable and
      swimmable” uses. The drinking water use is required where the use actually occurs or can,
      at the discretion of the State, be applied Statewide.

      Notice of Deficiency: The Water Protection Division agrees with the general intent of this
      term, but can not agree with the way the term is portrayed throughout this report. By
      capitalizing this term in the report (where it appears outside of the Glossary), it implies
      that this is a formal process under the water quality standards statute or regulation.
      Whereas we agree with the recommendation from the OIG that such a letter should be
      utilized to notify States of inadequacies in WQS regulations which should be changed,
      failure by the Region to issue such letters should not imply a violation of statute or
      regulation.

      Toxic Pollutants: The second sentence should be modified to read as follows: “States are
      required to adopt specific numeric criteria for these pollutants that are at least as stringent
      as EPA criteria recommendations, or provide a scientifically defensible rationale for a less
      stringent criteria.


Chapter 1

      Page 2, first full paragraph. This paragraph should be modified to reflect our comment on
      the term Designated Use above.

      Page 2, third full paragraph. In the first sentence, we count 102 toxic pollutants with EPA
      criteria recommendations, and we would suggest that “30 other pollutants” be changed to
 “approximately 38 other pollutants.” The use of the term “limits” can be confusing. “Limits” is
used more often to describe the number which results when criteria are implemented in National
Pollutant Discharge Elimination System (NPDES) permits, i.e., water quality-based effluent limits.
We would recommend that “limits” be changed to “criteria”. In the last sentence, in order to
reflect our comments on the term Toxic Pollutants above, we recommend that “stringent” be
changed to “protective.”

Chapter 2

       Page 14, Recommendation 2.3. On February 4, 1998, the EPA Regional Administrator
       wrote to Maryland Department of the Environment (MDE) Secretary asking that MDE
       develop a schedule for completing a triennial review of water quality standards. On
       March 2, 1998, the Region provided a letter under the signature of Patricia Gleason, the
       chief of the MD/DC Branch in the Office of Watersheds providing to MDE guidance on
       24 items for the triennial review; these items included an antidegradation policy and
       implementation procedures, correction of dissolved metals criteria, inclusive toxic criteria,
       and review of designated uses. The Region enclosed detailed guidance material on many
       of the 24 items. We also provided guidance for adoption of E.Coli and enterococci
       bacteria standards and asked for clarification of MDE’s current bacteriological water
       quality standards. Specifically, the March 2, 1998 letter asked MDE to provide data that
       shows all use I waters are meeting the criteria in accordance with 40 CFR 131.11(a).

 On March 30, 1998, J. L. Hearn of MDE wrote to the Regional Administrator providing a
 schedule for the triennial review; this schedule called for final adoption of water quality
 standards by August 1999. Various conference calls were held with MDE to discuss their
 progress on the review from April 1998 to November 1998. On September 22, 1998, MDE
 wrote EPA providing responses to nine of the technical items for review. On November 18,
 1998, MDE announced public hearings to be held on January 19, 21, and 26, 1999 for the
 purpose of reviewing applicable Water Quality Standards.

       Page 14, Recommendation 2.4. On April 17, 1998, the Region provided comment on
       Maryland’s draft list of impaired waters pursuant to Section 303(d) of the CWA. Among
       other comments, EPA noted that 1995 STORET fecal coliform data indicated certain
       waters exceeding paragraph (b) of its numeric criteria, i.e., greater than 10% exceedance
       of the numeric criterion of 400 MPN/100 ml. Our comments requested clarification or an
       explanation as to why those water bodies were not listed as impaired for fecal coliform.
       On September 4, 1998, in a letter from Michael S. Haire, Director of Technical and
       Regulatory Services Administration, MDE clarified its interpretation of its fecal coliform
       standard. MDE informed the Region that it interpreted paragraph (b) of its fecal coliform
       numeric criterion as requiring no less than five samples collected within a 30-day period,
 to account for variability in sampling and statistical estimation. Where less than five samples
 were collected, MDE determined that the data was insufficient to support a determination that
 the water violated the fecal coliform standard.

 Section 303(d)(1)(A) requires the State to identify waters for which technology-based limits are
 insufficient “to implement any water quality standard applicable to such waters.” In compiling
 its list, the State must consider existing and readily available data. Under Section 303(d)(2),
 EPA must approve or disapprove the list. If EPA disapproves the list, it must identify such
 waters to the extent necessary “to implement the water quality standards applicable to such
 waters.” Maryland considered the 1995 STORET fecal coliform data, but determined not to
 rely exclusively upon that data for a determination of impairment.

 We believe that Section 303(d) is not an appropriate vehicle for disputing the appropriateness of
 specific State water quality standards. The appropriate vehicle for rectifying concerns regarding
 the appropriateness of a State water quality standard is EPA’s authorities under Section 303(c).
 We also believe, consistent with informal guidance provided by the national TMDL program,
 that it is appropriate for the State to base its listing determination on its interpretation of its own
 standard. We accepted Maryland’s interpretation that a determination of impairment should not
 be based on a single sample as reasonable, particularly in light of the State’s commitment, in a
 letter dated August 12, 1998, to allocate additional resources to monitoring where data was
 insufficient to make a listing determination. We agree that follow-up is necessary to ensure that
 the State follows through with this commitment.


Chapter 3

       Page 15, second paragraph. Please see our comments on “Notices of Deficiency” under
       Glossary.

       Page 15, (1) under “Water quality standards consist of three elements”. Please see our
       comments on “Designated Use” under Glossary.

       Page 15, (3) under “Water quality standards consist of three elements”. Please see our
       comments on “Antidegradation Policy” under Glossary. We suggest that the language
       here be modified to read “...to ensure that existing water quality is conserved, maintained
       and protected.”

       Page 16, first paragraph of “Missing Criteria for Toxic Pollutants”. We are concerned
       that the wording concerning criteria could be confusing. In the third sentence, it reads
       that the Clean Water Act requires the States to have criteria at least as equal to EPA
       recommended criteria. This could have two meanings. One, which we believe is not the
     OIG’s intention in this context, is that the criteria has to be set equal to EPA criteria. The
     other, which would be correct, is that a state must adopt criteria for all toxic pollutants for
     which EPA has published criteria. If we are correct in our assumption, we suggest the
     following modification: “Section 303(c)(2)(B) of the Clean Water Act requires the States
     to adopt criteria for all toxic pollutants pursuant Section 307(a)(1) of the Clean Water Act
     for which EPA has published criteria under Section 304(a), the discharge or presence of
     which in the affected waters could reasonably be expected to interfere with those
     designated uses adopted by the State.” States, including Maryland, have used the lack of
     evidence that specific toxic pollutants would not be expected to interfere with designated
     uses to justify adoption of those criteria.

     Page 17, “Incorrect Criteria for Toxic Pollutants”. EPA published some updates to
     criteria in 1996, and that included revisions so that some of EPA’s recommended metals
     criteria is now less stringent than Maryland’s criteria. Because of these revisions, we
     recommend that starting with the third paragraph, the following changes be made: “The
     net effect is that the numeric levels set by Maryland may be less stringent than the levels
     currently recommended by EPA. Consequently, the State’s standards may allow more
     pollution...”

     Page 18, Maryland Summary. In the last sentence, we recommend that “Notices of
     Deficiency” be presented in lower case.

     Page 18, Delaware. As written, this section is not entirely accurate. We recommend this
     section be rewritten as follows: “In 1993, EPA identified a number of deficiencies with
     Delaware’s water quality standards program. After five years of discussion between the
     State and the Region, many of the deficiencies still remain unresolved. In April 1998, the
     Region finally sent a letter to the State disapproving 4 provisions of the standards, and
     identifying a number of provisions that the Region intends to recommend that the EPA
     Administrator find deficient, and promulgate replacement standards should the State not
     make the recommended corrections.”

     Page 19, West Virginia. We believe this section misrepresents our letters to the State,
     especially the use of definitive numbers of “problems”. In response to the West Virginia
     Water Quality Standards Triennial Review submitted October 12, 1993, EPA identified 4
     sections of the West Virginia standards which were being disapproved due to
     inconsistencies with Federal regulations. In addition, 4 sections were conditionally
     approved and 4 recommendations were made to allow the state to further clarify the
     intention of these sections. Recommendations made to the state are in no way considered
     deficiencies but are comments meant to assist the state in providing further clarification
     and consistency.

West Virginia submitted its next Triennial Review package on August 11, 1995. In our review,
EPA was able to fully remove 2 of the 4 disapproved sections from 1993. Of the
 remaining two issues, we were able to partially remove the disapprovals (e.g., the state had
 adopted variance, site-specific criteria and use removal policies, but the variances and site-
 specific criteria that existed in the standards regulation needed to be reviewed in order to assess
 whether these provisions met the requirements of the new policies).

 We are currently reviewing the State’s 1998 Triennial Review submission, and at this point it is
 premature to indicate what provisions will be found deficient. West Virginia did correct a
 number of issues that we have brought to its attention in our letters. In addition, we are
 unaware of what two deficiencies remain from 1993. We assume that one is Antidegradation,
 but we did conditionally approve the State’s Antidegradation policy in 1995, approval being
 conditional upon submittal of an implementation procedure.

      Page 20, Region III Position. There is one position that we believe was proffered during
      interviews that is not reflected in this section. We suggest that the following be added:
      “The Regions and Headquarters lack the resources, both in terms of personnel and
      funding, necessary to undertake a promulgation when the state does not make the required
      changes.”

      Page 20, Conclusion. In the last sentence, we recommend that “Notices of Deficiency” be
      changed to lower case.

      Page 20, Recommendations. In Recommendation 3.1, we recommend that “Notices of
      Deficiency” be changed to lower case. Recommendation 3.2 is technically incorrect. The
      Clean Water Act only requires that disapprovals be corrected within 90 days. There is no
      time limit for corrections of identified deficiencies that are not disapprovals.


Chapter 4

      Page 21, Triennial Reviews Chart. Two dates need to be updated in this chart. West
      Virginia submitted a triennial review package in July 1998. Virginia submitted a package
      in August 1998.

      Page 23, District of Columbia. The District has informed us that the final triennial review
      package will not be submitted until at least Fall 1999.

      Page 23, Pennsylvania. It would be more correct to say that Pennsylvania personnel was
      otherwise occupied working on the Commonwealth’s Regulatory Basics Initiative (RBI),
      which constitutes major revisions to its environmental regulations, including the water
      quality standards regulation. The modifications to the water quality standards regulation
      are intended to constitute a triennial review.
      Page 24, Recommendation 4.1. We believe it would be more appropriate to state that the
      Administrator initiate a 303(c)(4)(B) action. By specifying initiation of a triennial review,
      we neglect other options such a simply recommending that the Administrator make a
      finding of deficiency and promulgate appropriate standards.


Chapter 5

      Page 25, Summary of State Compliance Table, Water Quality Management Plan. The
      report lists none of the States have Water Quality Management Plans. We strongly
      disagree with this statement. The State’s Water Quality Management Plan does prioritize
      water quality problems, consider solutions, and recommends remedies; however, we do
      not believe that it is embodied in a single document, but rather an overall process which
      includes many different components. In fact, all States have recently completed Unified
      Watershed Assessments as part of the Clean Water Action Plan to establish priorities in
      cooperation with a broad range of State and Federal agencies.

      Page 25, Summary of State Compliance Table. On July 13, 1998, Maryland provided
      public notice of its intent to revise its CPP and invited public comment. As part of the
      Memorandum of Understanding between MDE and EPA Region III regarding Sections
      303(d) and 303(e) of the Clean Water Act, MDE agreed to update its CPP and transmit it
      to EPA on or before October 1, 1999.

      Page 27, Quality Assurance. Under Management Plans , it should be noted that prior to
      FY ‘97, Quality Assurance Management Plans were entitled Quality Assurance Program
      Plans (QAPPs), which all the states submitted back in the mid 1980's. These QAPPs
      were approved by the Region III Environmental Services Division (ESD) at that time.
      Sometime in the early 1990s, ESD disinvested in this review and stated that it was now
      the Project Officer’s responsibility to review Quality Assurance Program/Project Plans
      (QAPjPs). Project Officers in all EPA programs were in the same situation and were not
      provided with any training by ESD to carry out this task. Also, it was never brought to
      anyone’s attention that the Program Plans expired after a certain amount of time.

 All of the States were represented at the Quality Assurance Management Plan training in April
 of 1998. Several of the States have committed to send in their Quality Assurance Management
 Plans to Diann Sims in our ESD Annapolis Office for review by mid-December. Also, she is
 planning to train the EPA Project Officers sometime in the spring on how to review a Quality
 Assurance Project Plan. After training of the Project Officer’s is complete, she then plans to go
 back to the States and train them on the same review.
It is an inaccurate statement that the Region has been unwilling to enforce the States’
responsibilities under the Clean Water Act and Federal Regulations because it considered these
documents to be a low priority. Up until FY ‘98, most of the states have been sending in
Quality Assurance Project Plans to EPA for review. The Water Protection Division has been
working with Diann Sims and the Regional Quality Assurance Council since October, 1997 to
complete the above-mentioned tasks and correct the deficiencies listed in the audit report.
[This page was intentionally left blank.]




                   74
                           Report No. E1HWF7-03-0160-XXXXXXX
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                           REGION III
                                       1650 Arch Street
                            Philadelphia, Pennsylvania 19103-2029



SUBJECT:     Draft Report of Audit on Region III Water Quality                           12/17/98
             Standards, Monitoring and Reporting

FROM:        Stanley L. Laskowski, Director
             Environmental Services Division (3ES00)

TO:          Robert G. Reed, Jr., Chief
             Grants and Audit Management Branch (3PM70)

  This is in response to the request from the Office of the Inspector General for comments on
their draft Report of Audit on Region III Water Quality Standards, Monitoring and Reporting
(Audit Report). In general, we agree with the recommendations to the Regional Administrator
specified in the Audit Report. However, there did appear to be a few points which could use
some clarification.

  One example is Recommendation 2.1, ”Delete the option that allows States to use fecal
coliform as a criteria for reporting bacteria impairments.” If a State has a fecal coliform standard
already in place, it would be difficult to justify and probably legally indefensible to base
impairment decisions for both S. 303d and 305b on a different, unadopted criterion. The State
should be able to use its fecal coliform standard until a new indicator is adopted. However, every
effort should be made to get the States to update their bacteriological standards.

  There also seems to be a misinterpretation on page 10 of the Audit Report. Specifically,
Delaware is reported as having assessed 651 miles, with 84 miles impaired by bacteria. The 1996
S. 305b report from Delaware actually shows 801 miles of streams assessed, with 548 miles, or
68%, impaired by bacteria. I believe the reference specified in the Audit Report is the impairment
of aquatic life support and not primary recreation.

  Other issues involve Chapter 5 which discusses planning documents not prepared or updated. It
should be noted that monitoring strategies were requested as part of the S. 106 grant guidance
and not required (as specified on page 27), although several grants were conditioned to provide a
monitoring strategy. Maryland’s S.106 grant was conditioned to provide a monitoring strategy,
and we are currently working through the Performance Partnership Grant Program to induce
Maryland to provide a strategy document. A monitoring strategy was never requested from
Delaware due to the fact that they already assessed all of their waters, thereby alleviating the need
for a comprehensive strategy. Virginia has just recently submitted a new draft monitoring
strategy, and we are currently working with West Virginia to update their Watershed Assessment
Program to include a more detailed monitoring strategy. The Summary of State Compliance
Table in Chapter 5 also shows the status of submitted Quality Assurance Project Plans (QAPP).
Contrary to the information shown in the table, however, QAPP’s were



                             Customer Service Hotline: 1-800-438-2474
submitted by Delaware in 1991 and Virginia in 1992. This table, as well as the first sentence on
page 28, "Delaware and Virginia did not submit Quality Assurance Project Plans," should be
revised to correspond to the current status.

  Overall, we agree with the conclusions and recommendations of the Audit Report. We are
continuing to work on the short-comings identified.
Maryland Response to Draft Report




               77
                     Report No. E1HWF7-03-0160-XXXXXXX
[This page was intentionally left blank.]




                   78
                           Report No. E1HWF7-03-0160-XXXXXXX
                     MARYLAND DEPARTMENT OF THE ENVIRONMENT
                     2500 Broening Highway Ž Baltimore Maryland 21224
                     (410)631-3000 Ž 1-800-633-6101 Ž http://www.mde.state.md.us

Parris N. Glendening                                                                                           Jane T.
Nishida
Governor
Secretary
                                                     January 29, 1999
            Mr. Carl A. Jannetti
            Divisional Inspector General for Audit
            USEPA
            Office of the Inspector General
            Mid-Atlantic Division
            1650 Arch Street
            Philadelphia PA 19103-2029

            Dear Mr. Jannetti:

              Thank you for the opportunity to comment on the Draft Report of Audit on Region III Water
            Quality Standards, Monitoring, and Reporting (EIHWF7-03-0160). Our detailed comments and
            concerns regarding the audit report are enclosed.

              Many issues raised in the audit findings are being addressed as part of Maryland's current
            Triennial Review and other on-going regulatory processes. Other issues raised in the audit
            findings are based on incomplete information or incorrect interpretations of the information
            provided to the auditors and clarification is offered here.

             The enclosed response to the draft audit report was developed in coordination with the
            Maryland Department of Natural Resources (DNR) and represents the combined comments of
            both agencies.

              We hope that this letter and the enclosed detailed responses will be incorporated in the audit
            report and forwarded with the finding of the OIG to Region III. If you have any questions about
            our comments or plans, please call me at 410-631-3680                             or Richard
            Eskin, of my staff at 410-631-3691.

                                                  Sincerely,

                                                  Michael S. Haire, Director
                                                  Technical and Regulatory Services Administration
            Enclosures

            cc: Jane Nishida, Secretary, Maryland Department of the Environment
                Robert Hoyt, Assistant Secretary, Maryland Department of the Environment
                J.L. Hearn, Director, Water Management Administration
                Paul Massicott, Director, Resource Assessment Service, DNR
                Richard Eskin, Program Manager, Technical & Regulatory Services
                            Administration, MDE
TTY Users 1-800-735-2258                                                                               v
via Maryland Relay Service                 “Together We Can Clean Up”                            Recycled Paper
 Response by the Maryland Department of the Environment to the Draft Report of Audit
                                        on
           Region III Water Quality Standards, Monitoring, and Reporting
                       Audit Report Number EIHWF7-03-0160

                    Chapter: Bacteria in Water Not Assessed or Reported

There were several findings in this section related to adoption of EPA recommended criteria for
bathing beaches, proper in implementation and interpretation of standards, differences between
the Water Quality Inventory Report (the Report) and the List of Impaired Waters (the List), and
whether waters with data not adequate to apply the standard should be listed as impaired. The
section closed with recommendation to modify the standards or the current implementation and to
revise the list.

Most of these issues have been addressed by better coordination and communication between
MDE and DNR in the development of the Report and List, or are being addressed through the
Triennial Review. We agree that the bacteriological criterion needs to be revised and that
monitoring for bacteria needs to be modified to better implement the standard. We disagree with
the assertion that Maryland's standards are less protective than those recommended by EPA and
with the finding that additional waters should be added to the List of Impaired Waters.

Finding: Maryland did not adopt the federal bacteriological criteria.

Response: Maryland does not agree with the auditors' statement that Maryland's standard is less
protective than the EPA recommended criteria. Only a few states have adopted EPA's 1986,
Ambient Water Criteria for Bacteria, while the rest continue to use a fecal coliform standard,
similar to Maryland's.

First it is important to note that EPA did not intend that the recommended criteria using the
enterococcus and E. coli indicators be implemented in shellfish harvesting waters. EPA states
"With the exception of shellfish harvesting waters which must relate to shellfish sanitation
guidelines and FDA marketplace requirements, EPA believes that all other waters that are
classified for primary contact could benefit from the application of the revised criteria" (Fed. Reg,
Vol. 51 No. 45 p. 8013). Consequently, the areas in Maryland where this recommended criteria
might be applicable are those waters designed as Use I, III, or IV waters. We are looking at the
appropriateness of adopting such criteria for those waters during the current triennial review. The
FDA requires that all states which deal in interstate commerce of shellfish use the fecal coliform
standard that Maryland currently has in its regulations.

Furthermore, the beaches at which EPA conducted its Studies to develop the enterococcus, and
E. coli indicators recommended in the 1986 report were subject to raw sewage from a plant
serving a population of 100,000 people. Similar situations do not occur anywhere in Maryland
since at least secondary and nearly always tertiary treatment has been implemented at Maryland
plants. Given Maryland’s record with the absence of bathing beach illness and the fact that the
enterococcus and E. coli indicators have not been widely adopted by other states, it is not clear
that the public health would be better protected by using these new indicators.
Maryland's current fecal coliform standard and EPA's 1986 criteria both utilize nonpathogenic
organisms consistently present in the feces of all warm-blooded animals. As surrogates of
pathogenic organisms, use of either indicator has similar limitations. Maryland has emphasized
prevention as the most critical component to protect public health. The sanitary survey
component of Maryland's regulations is designed to prevent and abate pollution sources of human
health significance. In addition, the OIG auditors may not have understood that, in addition to
sanitary surveys conducted by this Department for shellfish, local governments have delegated
authority for bathing beaches and monitor for fecal coliform and conduct sanitary surveys when
elevated counts are observed. In addition, sanitary surveys are conducted, generally by local
health departments, to evaluate the presence of failing septic systems and the need for sewer
hookups.

However, through the Triennial Review, Maryland will explore the feasibility of adopting a fecal
coliform standard using the enterococcus and E. coli indicators in primary contact waters. MDE
will discuss this issue with the County Environmental Health Directors since the counties have
delegated authority for permitting beaches. MDE will use their input and experience to determine
whether to implement these standards.

Finding: Maryland did not properly implement its own standards, or follow EPA guidance
when assessing and reporting impaired water bodies.

Response: Maryland has consistently applied its current interpretation of the bacterial water
quality regulations for many years, with the approval of EPA. Given Maryland's excellent public
health record related to both bathing beaches and shellfish, this program has been protective.
Nevertheless, based on comments received from EPA in its review of the 1998 List of Impaired
Waters, MDE has agreed with EPA that a review of the bacterial contarnination regulations and
bacterial sampling protocols is warranted and will be pursued in the ongoing Triennial Review
process.

Maryland's fecal coliform standard is composed of both a numerical measurement and a sanitary
survey. The numerical measurement is determined by estimating the Most Probable Number
(MPN) of fecal coliform. The MPN is not a direct count, but is a statistical estimation subject to a
high degree of variability. The water quality standard requires a minimum of five samples taken
during a 30-day period in order to account for the inherent variability of the indicator. In addition,
the regulations include a provision whereby a sanitary survey that confirms the absence of a
source of human pathogens can be used to supercede fecal coliform measurements. Given the
inherent variability of the fecal coliform indicator, Maryland has historically relied on both sanitary
surveys and fecal coliform measurements for decisions on closing the water for primary contact
uses. If the closure is related to a technical problem (e.g. failing septic systems, cracked sewer
line), steps are taken to correct the problem. If however, the technology-based limitations cannot
correct the violation of the bacteriological standard, this closed water segment is then determined
to be impaired and added to the State's 303(d) list. As noted above, although this Department
does not do statewide sanitary surveys, except for shorelines, local health Departments do
conduct the surveys, both for enforcement of bathing beach standards and to survey needs with
respect to septic systems.
It is unclear to what the OIG is referring in reference to the statement that Maryland "[did not]
follow EPA guidance when assessing and reporting water bodies." If this statement refers to the
use of the fecal coliform standard, as noted above, Maryland, and most other states have not
adopted EPA guidance related to their choice of indicator organisms. If the OIG means that
Maryland disagreed with the Region's interpretation of the data, that is correct. This issue is
explained more fully below.

Finding: Two state agencies use different interpretations of the State's criteria to
determine if water bodies are impaired. However, neither interpretation implements the
State's criteria as written. As a result Maryland did not report 62 water bodies that had
elevated bacteria levels on its Assessment Report or 185 bodies that had elevated bacteria
levels on its Impaired list.

Response: MDE is responsible for the submission of Maryland's official List of Impaired Waters
that is submitted to EPA as required by Section 303(d) of the Clean Water Act, following a
thorough public review procedure. Although MDE consults with DNR in the development of the
list, MDE is the delegated agency in defining water quality limited segments (i.e., impairments) for
Maryland. In the past, there has been some inconsistency between the agencies' interpretation of
the criteria in developing the Section 305(b) Water Quality Assessment report and the 303(d)
List. We are currently addressing the issue so that it will not be a problem in the future.

There also seems to be some confusion in the OIG report with regard to bacteriological standards.
The audit excerpt cites the criterion for the contact recreation use (COMAR §26.08.02.03-3A(l))
and then goes on to discuss DNR's interpretation for "permitted beaches" which is addressed
separately in COMAR (§26.08.09.06). The excerpt then describes the process used by approving
authorities to interpret the State's water contact criterion for permitted bathing areas. The
approach taken by EPA OIG is incorrect in that it confuses two different standards. In most cases
the approving authorities for bathing beaches are the County Health Departments, which do both
the sampling and the sanitary surveys before opening beaches. Beaches are closed if they are
impaired based upon the standard found at COMAR §26.08.09.06.

Finding: The Region notifed Maryland of 185 water bodies contaminated for bacterial
contamination. When Maryland asserted that there was insufficient data for these water
bodies to be added to the list, the Region acquiesced with the State's promise to do
additional testing.

Response: MDE and the Region discussed this issue extensively. We went through the Region's
concerns on a case-by-case basis and provided a decision rationale or justification in each and
every case (enclosure). MDE conceded locations where the case could be made that an
impairment exists and added these waters to the 1998 303(d) list. The Region conceded locations
where the case for an actual impairment was not supportable. This was a positive decision that has
lead to improvements in Maryland's program, completely protected public health, yet did not
inappropriately list water body segments as impaired if they were not. Consequently, given the
thorough analysis provided, we strongly disagree with the conclusion that additional waters
should be added at this time.
                       Chapter: Deficient Standards Were Not Corrected

Finding. Deficiencies in Maryland's water quality standards-Missing criteria for toxic
pollutants. According to PCS there are 62 toxic pollutants listed in Section 307(a) that are
discharged, or are present in State waters and can reasonably be expected to interfere with
designated uses for which dischargers are required to test, but Maryland has numeric
criteria for only 20 of those pollutants.

Response:

Maryland has evaluated the list of substances provided by the OIG. Of the 62 substances alluded
to by the OlG, Maryland has water quality standards for 24 substances. For those substances for
which Maryland has not adopted water quality standards, MDE generally employs EPA's
recommended criteria in their decision making process. For a few facilities, MDE uses its best
professional judgement for those substances for which no Maryland water quality standard or
EPA recommended criteria exist. For such substances, MDE will generally evaluate the need to
develop criteria in accordance with environmental and public health needs and the requirements of
the Clean Water Act.

Furthermore, the OIG may have misinterpreted Section 307(a) for the following reasons;

1. Just because a permit requires monitoring for a pollutant, it does not mean the pollutant is
   always present. Sometimes we require monitoring by a permittee to verify that a particular
   pollutant is not present.

2. If the pollutant is present in an individual facility's discharge, the law does not automatically
   require the adoption of a criterion. Federal regulations are specific that such action must take
   place only if priority pollutant toxics are adversely affecting water quality or if they are present
   at a level, to warrant concern (CFR 131.11(a)(2)). Professional judgement must be applied to
   make that determination and confirmed by monitoring.

3. If a pollutant is limited in a permit, it does not mean it is a concern to water quality in
   Maryland waters. It may be a technology-based limit required under federal guidelines for that
   industry even if the pollutant is not known to be present in the permittee's wastewater or
   Maryland waters.

4. EPA has criteria for 99 priority pollutant toxic substances. Only 30 of these include aquatic
   life criteria. Maryland has criteria for 24 of these 30 substances.1 The remaining six are
   pesticides that are not in our permitted discharges based on long-term experience with our
   dischargers.




       1
           “PCB” in Maryland regulations applies to each of the seven PCB priority pollutants.
5. Sixty-nine of the 99 substances have criteria only for human health (drinking water and fish
   consumption). Almost all of these are for organic substances. While Maryland has been very
   conservative by adopting criteria for most of the priority pollutants with aquatic life criteria,
   we have not found evidence indicating a need to adopt as many for the organic pollutants
   based upon human health concerns. Maryland's water quality monitoring experience indicates
   organics are usually at nondetectable levels. Even if an organic is detected in a water sample,
   human health criteria involve less stringent averaging periods than the aquatic life criteria (an
   annual average for human health criteria versus a four-day average for chronic aquatic life
   criteria, for example).

Finding: Deficiencies in Maryland's water quality standards-Maryland's numeric criteria
for 15 metals are set at incorrect levels (the State set criteria at numeric Levels that EPA
recommended for "total recoverable" but adopted these as "dissolved") that are less
stringent than the levels recommended by EPA.

EPA Region III approved Maryland's water quality standards it 1990. Then, EPA published in the
Federal Register an "interim final rule, notice of data availability and request for comments" in
May 1995. EPA published the most recent final guidance on metal conversion factors in
December 1998.

Consequently, the use of the conversion factors, and subsequent change (if any) of Maryland's
water quality standard is being currently addressed as part of Maryland's current Triennial Review
and will then undergo the scrutiny of the public participation process. Given these facts, we
believe that the OIG’s conclusion that Maryland is deficient is premature and does not take into
consideration the regulatory process, which is required under the Clean Water Act.

Finding: Maryland does not have an Antidegradation policy including an ONRW.

Response: MDE will address the designation of Outstanding National Resource Water during its
current Triennial Review with EPA and full public participation.

Finding: Maryland Lacks Designated Uses for wetlands and estuaries.

Response: The audit findings are incorrect that there is a lack of designated uses for wetlands
and estuaries. Both are waters of the State and as such are protected for Use I. COMAR
§26.08.01.02A(103) describes "Waters of this State" to include the Chesapeake Bay (which is,
estuarine) and tidal and nontidal wetlands.

“Fress Water, Estuarine, and Salt Water Boundaries" are established in 26.08.02.03-IB. Uses are
generally assigned in COMAR §26.08.02.07A: "All surface waters of this State shall be protected
for Use I, which includes water contact recreation, fishing and protection of aquatic life and
wildlife. Therefore, Use I is explicitly designated for both tidal and nontidal wetlands, and since
the Chesapeake Bay is largely estuarine, to estuarine waters as well.


Uses are specifically and explicitly assigned in COMAR §26.08.02.08 for example:
               §26.08.02.08B sub-basin 02-13-01; Coastal Area (2) Use II: All
               portions of the territorial seas and estuarine portions of bays and
               tributaries except... (emphasis added)
In summary, the designated use for wetlands is Use I and for estuaries is Use II (shellfish
harvesting) and Use I. In addition we will evaluate the need to refine these uses during the
current Triennial Review.

                                 Chapter: Missed opportunities

Finding: Maryland is five years late in carrying out Its 1993 Triennial Review of Water
Quality Standards.

Response: Due to the litigation that developed challenging the legality of the regulations adopted
during the last Triennial Review and the subsequent revisions to water quality regulations, the
schedule was disrupted with EPA's full knowledge. We anticipate that future Triennial Reviews
will be, held in a timely manner. Maryland has initiated its current triennial review in rcsponse to
a request from Region III. Hearings for the public involvement component began in mid-January,
and a review in response to Region III's specific concerns is well underway.

                   Chapter: Planning Documents Not Prepared or Updated

Finding: Continuing Planning Process documents (CPP, Water Quality Management Plan,
Monitoring Strategy and Quality Assurance) have not been prepared or maintained.

Response: CPP has been adopted in accordance with the requirements of the Clean Water Act.
MDE provided public notice on July 13, 1998 that the CPP is being revised with public
participation. We anticipate that such revisions and review of the CPP will occur periodically in
future years.

MDE will perform chemical and physical monitoring in accordance with the Cycling Strategy.
Numerous monitoring plans exist and incorporate QA/QC protocols. Past 305(b) Reports have
described the monitoring programs that produced the data used. There are well documented
monitoring plans for the Chesapeake Bay and many tributaries. Detailed monitoring plans are
available for the Lower Delmarva Peninsula and the Upper Bay as part of the Watershed Cycling
Strategy. Plans for the remaining parts of the State will be developed as the Watershed Cycling
Strategy moves on to those areas.

DNR has been working to update the State's Water Quality Monitoring Strategy to incorporate
the latest information about the State's diverse monitoring approach. Continuing and substantial
change's in these programs have occurred recently and need to be addressed, including the
transfer of monitoring programs between State agencies, the addition of regional TMDL- based
monitoring and new Pfiesteria monitoring efforts as well as the proposed National Estuary
program monitoring program. While each water quality monitoring effort has unique goals,
MDE and DNR have had formal meetings to coordinate our respective monitoring efforts and
Quality Assurance plans.
                      Suspected Substance:           Fecal Coliform

Notes:   (1)Restricted as precautionary measure and not due to poor water quality data. These
         are areas downstream from a Waste Water Treatment Plant (WWTP) that meet all water
         quality requirements. These areas, however, are restricted to shellfish harvesting because
         of the potential for treatment system failure. While water quality in these areas support
         the designated use, the Food and Drug Administration requires as a precautionary
         measure. They are not indicative of a violation of the water quality standards. These areas
         are monitored by MDE and meet the water quality standard for fecal coliform. If
         monitoring and compliance data indicate that the plant is not functioning properly,
         corrective actions would be immediately initiated. Since no impairment exists, the
         development of a TMDL is not necessary under these circumstances.

         (2) Not listed because there is insufficient data to determine a violation of water quality
         standards is the same logic as listed above for Table 1.

  Watershed           Water Body Segment                     Justification for listing or not listing

  02120101      Atlantic Ocean                     Not listed. Restricted as precautionary measure and
                                                   not due to poor water quality data (WWTP).

  02120201      Lower Susquehanna River            Not listed because there is insufficient data to
                                                   determine a violation of water quality standards.

  02120202      Deer Creek                         Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130206      Tangier Sound                      Not listed. Restricted as precautionary measure and
                                                   not due to poor water quality data (WWTP).

  02130207      Big Annemessex River               Not listed. Restricted as precautionary measure and
                                                   not due to poor water quality data (WWTP).

  02130303      Wicomico Creek                     Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.
  02130305      Nanticoke River                    Added to MD 1998 303 (d) list.

  02130308      Transquaking River                 Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.
  02130404      Choptank Marine Beach              Added to 1998 303(d) list.
                                                   Swim closure is though to be due to sewage discharge
  02130404      Lake Bonnie, Choptank              from WWTP and therefore should not apear on 1998
                                                   303(d) list.

  02130405      Tuckahoe Creek                     Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.
  02130503      Wye River                          Already on 1996 303(d) list.

  02130601      Lower Elk River                    Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130603      Upper Elk River                    Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130604      Back Creek                         Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130606      Big Elk Creek                      Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130610      Sassafras River                    Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.

  02130701      Bush River                         Not listed. There is insufficient data to determine a
                                                   violation of water quality standards.
Watershed          Water Body Segment                  Justification for listing or not listing

02130702    Lower Winters Run (Bush River)    Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130703    Atkisson Reservoir Drainage       Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130704    Bynum Run                         Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130706    Swan Creek                        Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130705    Aberdeen Proving Grounds          Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130802    Lower Gunpowder Falls             Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130804    Little Gunpowder Falls            Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130805    Loch Raven Reservoir Drainage     Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130806    Prettyboy Reservoir Drainage      Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130901    Back River                        Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130902    Bodkin Creek                      Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130903    Patapsco River                    Not listed. There is insufficient data to determine a
                                              violation of water quality standards.
02130903    Marley/Rock/Furnace Creeks        Added to 1998 303(d) list.

02130904    Jones Falls (above Lake Roland)   Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130905    Gwynns Falls                      Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02130906    Mainstem/Lower North Branch       Not listed. There is insufficient data to determine a
            Patapsco River                    violation of water quality standards.

02130907    Liberty Reservoir Drainage        Not listed. Latest data show no violations.
            Cascade Lake

02130908    S. Branch Patapsco                Not listed. There is insufficient data to determine a
                                              violation of water quality standards.
02131005    West Chesapeake Bay               Added to 1998 303(d) list.
02131101    Lower Patuxent River              Added to 1998 303(d) list.

02131102    Patuxent                          Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02131102    Patuxent River above Ferry        Not listed. There is insufficient data to determine a
            Landing                           violation of water quality standards.

02131103    Patuxent River Western Branch     Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02131104    Patuxent Mainstem-Rt. 214 to      Not listed. There is insufficient data to determine a
            Rocky Gorge                       violation of water quality standards.

02131105    Little Patuxent River             Not listed. There is insufficient data to determine a
                                              violation of water quality standards.

02131108    Triadelphia Reservoir Drainage    Not listed. There is insufficient data to determine a
                                              violation of water quality standards.
Watershed         Water Body Segment                    Justification for listing or not listing

02139997    Middle Chesapeake Bay              Not listed. Restricted as precautionary measure and
                                               not due to poor water quality data (WWTP).

02139998    Lower Chesapeake Bay               Not listed. Restricted as precautionary measure and
                                               not due to poor water quality data (WWTP).

02140101    Potomac River - mouth to Smith     Not listed. Shellfish harvesting area approved.
            Point

02140102    Potomac-Marshall Hall to Smith     Not listed. There is insufficient data to determine a
            Pt.                                violation of water quality standards.

02140107    Gilbert Swamp                      Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140108    Zekiah Swamp                       Not listed. There is insufficient data to determine a
                                               violation of water quality standards.
02140109    Port Tabacco River                 Not listed. Shellfish harvesting area approved.

02140110    Nanjemoy Creek                     Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140111    Mattawoman Creek                   Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140201    Potomac - Marshall Hall to Chain   Not listed. There is insufficient data to determine a
            Bridge                             violation of water quality standards.

02140202    Potomac - Monacacy River to        Not listed. There is insufficient data to determine a
            Chain Bridge                       violation of water quality standards.

02140203    Piscataway Creek                   Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140205    Potomac R., Anacostia              Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140206    Rock Creek                         Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140207    Cabin John Creek                   Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140208    Seneca Creek                       Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140301    Potomac River - Shenandoah to      Not listed. There is insufficient data to determine a
            Monocacy                           violation of water quality standards.

02140302    Lower Monocacy River               Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140303    Upper Monocacy River               Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140304    Double Pipe Creek                  Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140305    Catoctin Creek                     Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140501    Potomac River - hancock to         Not listed. There is insufficient data to determine a
            Shenandoah River                   violation of water quality standards.

02140502    Antietam Creek                     Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140504    Conococheague Creek                Not listed. There is insufficient data to determine a
                                               violation of water quality standards.

02140508    Potomac River - N Branch           Not listed. There is insufficient data to determine a
            Potomac to Hancock                 violation of water quality standards.

02141001    Lower North Branch Potomac         Not listed. There is insufficient data to determine a
            River                              violation of water quality standards.
Watershed         Water Body Segment             Justification for listing or not listing

02141003    Wills Creek                 Not listed. There is insufficient data to determine a
                                        violation of water quality standards.

02141004    Georges Creek               Not listed. There is insufficient data to determine a
                                        violation of water quality standards.

05020202    Little Youghiogheny River   Not listed. There is insufficient data to determine a
                                        violation of water quality standards.

05020204    Casselman River             Not listed. There is insufficient data to determine a
                                        violation of water quality standards.
[This page was intentionally left blank.]




                   90
                          Report No. E1HWF7-03-0160-XXXXXXX
                                    APPENDIX B

                                  DISTRIBUTION


Headquarters

Office of Inspector General - Headquarters (2421)
Assistant Administrator for Water (4101)
EPA Library (3404)

EPA Region III

Regional Administrator (3RA00)
Director, Water Protection Division (3WP00)
Director, Environmental Services Division (3ES00)
Chief, Office of Watersheds (3WP10)
Chief, Office of Ecological Assessment and Management (3ES10)
Regional Library (3PM50)

Other

Office of Inspector General - Divisional Offices
General Accounting Office




                                          91
                                                   Report No. E1HWF7-03-0160-XXXXXXX
